App A-1
TWENTY-SECOND JUDICIAL CIRCUIT
OF VIRGINIA
COMMONWEALTH OF VIRGINIA
CIRCUIT COURT OF THE CITY OF DANVILLE
CIRCUIT COURT OF THE COUNTY OF
FRANKLIN
CIRCUIT COURT OF THE COUNTY OF
PITTSYLVANIA
JOSEPH W. MILAM, JR., CHIEF JUDGE
JAMES J. REYNOLDS. JUDGE
COURTS AND JAIL BUILDING
401 PATTON STREET
P. 0. BOX 1401
DANVILLE. VIRGINIA 24543-1401
(434) 799-5171

December 16, 2019

1

App A-2
Dale Jensen
Dale Jensen, PLC
606 Bull Run, Staunton, Virginia 24401

Robert Haskins
Pittsylvania County Commonwealth's Attorney
1 Main Street
Chatham, Virginia 24531

Dear Counsel,
The Court received Mr. Jensen's "Motion to
Vacate Judgment" and "Memorandum in Support of
Motion to Vacate Judgment." The Court is prepared
to rule on the Defendant's Motion without the
Commonwealth's response. For the following
reasons, the Court denies the Defendant's Motion to
Vacate Judgment.

2

App A-3
Procedural History
On August 20, 2012, a Grand Jury sitting in
Pittsylvania County returned three "True Bills,"
indicting Mr. Paduano on two counts of Carnal
Knowledge of a child between the ages of 13 and 15
in violation of Virginia Code §18.2-63(A) and one
count of Possession of a Firearm by a Convicted
Felon in violation of Virginia Code §18.2-308.2(A).
On December 5, 2012, the Defendant appeared in
court, represented by counsel and after being
arraigned, and entered "not guilty" pleas to all
counts.1 The Court found Mr. Paduano to have
waived his jury trial right "knowingly and
voluntarily" and tried the case without a jury.
1

Conviction Order, Commonwealth v. Joseph L.

Paduano, entered December 7, 2012.

3

App A-4
The Court found Mr. Paduano guilty of two
counts of carnal knowledge and possession of a
firearm after having been convicted of a violent felon.
On February 15, 2013, Mr. Paduano, by counsel,
moved the Court to reconsider its conviction for
reasons not pertinent here, but notably did not
include challenges to the indictments. The Court on
February 19, 2013, denied Mr. Paduano's motion. On
April 24, 2013, the Court sentenced Mr. Paduano to
twenty-five years.2
The Defendant appealed the conviction to the
Virginia Court of Appeals, where the assignments of
error did not include challenges to the indictments
insofar as they were constitutionally defective.

2

Sentencing Order, Commonwealth v. Joseph L.

Paduano, entered April 28, 2013.

4

App A-5
The Court of Appeals found that the trial court
did not abuse its discretion in denying Mr. Paduano's
Motion for a Bill of Particulars by stating, "the
indictments against appellant set forth the specific
charges against him. The indictments specifically
track the language of Code§ 18.2-63."3 Mr. Paduano
filed the present Motion on November 27, 2019.

Discussion
A court retains jurisdiction to modify, vacate,
or suspend a final order for twenty-one days, and no
longer, after entry of such an order. Va. Sup. Ct. R.
1:1(a). The Virginia Supreme Court has held that a
party may attack orders that are void ab initio
directly or collaterally "anywhere, at any time, or in

3 Paduano v. Commonwealth of Virginia, Record No.
0816-13-3, *5 (Va. Ct. App. December 30, 2014).

5

App A-6
any manner."4 An order is consider void ab initio "if
entered by a court in the absence of jurisdiction of
the subject matter or over the parties."5 The
Defendant filed the present motion well outside of
the twenty-one day jurisdiction requirement of Rule
1:1(a), so the Court may only vacate the Defendant's
conviction if the conviction order entered here is void
ab initio.
The Defendant argues that the conviction
order is void ab initio for three reasons. First, the
trial court violated the Defendant's right to grand
jury indictment.6 Second, the Defendant argues the
4 Singh v. Mooney, 261 Va. 48, 52 (2001).
5 Id. at 51-52.
6 The Defendant argues that the Grand Jury right in
the Fifth Amendment to the United States
Constitution is, or at least should be, incorporated
against the states through the Due Process Clause in

6

App A-7
court did not have jurisdiction to try the Defendant
because the court failed to enter an order recording
the return of the "true bills" in open court. Third, the
Defendant argues that the language of the
indictment failed to include the phrase '"without the
use of force," which he characterizes as an essential
element. The Court takes up each issue in tum.

Constitutional Right to Grand Jury
The Fourteenth Amendment to the United
States Constitution "'has not been construed to
include the Fifth Amendment right to 'presentment
or indictment of a Grand Jury.'"7 Neither the
Supreme Court of the United States nor the Supreme
the Fourteenth Amendment to the United States
Constitution.
7 Apprendi v. New Jersey, 530 U.S. 466, 477, n. 3
(2000).

7

App A-8

Court of Virginia have held that the Grand Jury
requirement has been incorporated against the
States through the Fourteenth Amendment's Due
Process Clause. This Court adheres to Virginia
precedent, namely Hanson v. Smyth8, and declines to
disturb the finality of this case in the name of
counsel's after-the-game Hail Mary.
The Defendant's ancillary argument that the
"Privileges or Immunities" of the Fourteenth
Amendment incorporates the Fifth Amendment's
Grand Jury requirement, and thus applicable to the
States, is likewise without binding legal authority.9
8 183 Va. 384 (1944).
9 Counsel confuses the "Privileges and Immunities"
Clause, also known as the Comity Clause, found in
Article IV, section 2, clause I with the "Privilege or

8

App A-9
Indeed, the Supreme Court has declined to use the
Privileges or Immunities Clause either to strike
down state action since the Slaughter-House Cases
in 1873 or to incorporate federal rights against the
states.10 Again, the Court declines to deviate from
years of settled constitutional law.

Recordation Order
Immunities" Clause found in section l of the
Fourteenth Amendment.
10 83 U.S. 36, 16 Wall. 36 (1873); but see McDonald
v. Chicago, 561 U.S. 742 (20 I 0) (Thomas, J.,
concurring) ("the right to keep and bear arms is a
privilege of American citizenship that applies to the
State though the Fourteenth Amendment's
Privileges or Immunities Clause.").

9

App A-10
The Defendant next asserts that non existence
of an order recording the return of the "true bills" in
open court deprived the trial court of jurisdiction to
hear and try the case. The Supreme Court of Virginia
directly rejected this argument in Epps v.
Commonwealth, 293 Va. 403 (2017), a case counsel
conveniently did not cite in neither his motion nor
his memorandum.11 Epps substantially resolves the
question presented. In Epps, at the time of trial, the
Court had not entered an order memorializing the
Grand Jury return of the indictments against Epps
in open Court (the Court entered an order after
trial), and no objection was made to the indictment
11 The Court reminds Counsel of the obligation and
duty of candor toward the tribunal insofar as citing
controlling case law. See Virginia Rules of
Professional Conduct, R. 3.3.

10

App A-11
until after trial. The Supreme Court, relying on prior
precedent, including Hanson, rejected Epps'
argument that the failure to properly memorialize
the return of an indictment deprived the trial court
of jurisdiction.
Specifically, the Supreme Court in Epps stated
that "none of the statutes or rules requires that an
order memorializing the return of an indictment in
open court must be entered prior to trial in order for
the indictment to be valid."12 The Court reiterated
Hanson's prior holding that the '"requirement of an
indictment in the prosecution for a felony may be
waived, and hence it is not jurisdictional."13
Moreover, the Supreme Court cited to Supreme
12 Epps, 293 Va. 403,408 (2017).
13 Id at 409 (citing Pine v. Commonwealth, 121 Va.
812, 835 (1917)).

11

App A-12
Court of Virginia Rule 3A:9 (b)(1) and (c) to hold
that:
Objections based on defects in the institution
of the prosecution or in the written charge
upon which the accused is to be tried, other
than that it fails to show jurisdiction or to
charge an offense, must be raised by motion
filed or made before a plea is entered and, in a
circuit court, at least 7 days before the day
fixed for trial. Failure to comply with these
requirements constitutes a waiver.14
Here, the Grand Jury returned the
indictments on August 20, 2012. The defendant, by
counsel, filed numerous pre-trial Motions,
challenging admissibility of his statements (filed
14 Id at 409-10 (citing Prieto v. Commonwealth, 283
Va. 149, 181-82 (2012)) (emphasis added).

12

App A-13
9/13/2012), a search and seizure of firearms and
ammunition (filed 9/13/2012), a Motion for a Bill of
Particulars (filed 9/13/2012), a Motion for a
Psychological Evaluation (filed 10/09/2012), a Motion
to Continue (filed 10/09/2012). The Defendant also
filed a Motion for reconsideration regarding the two
carnal knowledge cases on February 15, 2013. None
of the pre-trial motions, post-trial motions, or
appeals to the Court of Appeals of Virginia or the
Supreme Court of Virginia raised the issue of
defective indictment.15 The Conviction Order in here
15 The Defendant argued unsuccessfully that the
trial court abused its discretion by denying his
request for a Bill of Particulars. The Court of
Appeals affirmed the conviction stating that the
defendant was not entitled as a matter of right to a
Bill of Particulars. Furthermore, the Court stated
that the indictment's language sufficiently apprised

13

App A-14
recites that the Defendant was "arraigned and after
being advised by his counsel pleaded not guilty."16
Since the Defendant, like Epps, was "subject to the
requirement, embodied in Rules 3A:9(b)(l) and (c)
that he must challenge the indictment at least 7 days
before his [December 5, 2012] trial" and did not do
so, he has waived the right to object to the
indictment.17 Because the Defendant waived his
right to challenge the indictment and even if he had
not, the Court rejects the Defendant's jurisdictional
theory insofar as Epps's holding dictates.

Indictment
Finally, the Defendant argues that the
the defendant of his conduct that served as the basis
for the charges.
16 Emphasis added.
17 Epps, 293 Va. at 410.

14

App A-15

indictment's "missing language" of "without the use
of force" adversely affects the indictment to deprive
the trial court of subject matter jurisdiction to have
heard and tried the case. The Court rejects the
Defendant's argument for two reasons. First, the
Court's ancillary holding in Epps regarding whether
an indictment is jurisdictional similarly resolves the
question here. It follows then that the Defendant
waived any argument as to any possible defect in the
indictment.18 Notwithstanding the Defendant's
waiver, an indictment must be "so defective" as to
have deprived the defendant of his ability to defend
against the charge. Language of "without the use of
force" differentiates a charge for Carnal Knowledge
under Virginia Code Section 18.2-63 from the MORE
SEVERE charges of forcible sexual contact. The
18 See Va. Sup. Ct. R. 3A:9(b)( I) and (c).

15

App A-16

failure to include the language does not subject the
defendant to any greater punishment, or in any way
deprive him or her of due process. The offenses for
which the defendant was indicted can be said to be
strict liability offenses with respect to the victim's
age. What differentiates the charge from others in
the same Article of the Code is the age of the victim,
not the question of force. Additionally, the
indictments contained the Code section under which
the Grand Jury indicted the Defendant.
Consequently, the Defendant's claim of not being
apprised of the changes against him is without merit.
The Court finds, like the Court of Appeals found on
the Defendant's direct appeal, that the indictment's
language sufficiently apprised the Defendant of the
charges against him and, thus, suffered from no
infirmity.

16

App A-17

Conclusion
The Court finds no infirmity in the indictment
nor the indictment process such that the conviction
and sentencing orders are void ab initio.
Consequently, the Defendant's Motion to Vacate
Judgment must be, and is, denied. The Court directs
the Clerk to enter an Order consistent with this
opinion and dispenses with the need for counsel
endorsement consistent with Rule 1:13.

It is so ordered

Respectfully Yours,

James J. Reynolds (S)
CHIEF JUDGE, TWENTY-SECOND CIRCUIT

17

App A-18
cc: Mark A. Scarce, Clerk of Circuit Court Robert
Haskins, Commonwealth's Attorney
Dale Jensen, Attorney for Defendant

18

App A-19
VIRGINIA: IN THE CIRCUIT COURT OF
THE COUNTY OF PITTSYLVANIA

Commonwealth of Virginia,

Plaintiff

Vs. ORDER - #CR12000477-00, CR12000592-00
through CR12000594-00
Joseph Louis Paduano

Defendant

It appearing to the Court that the counsel for
the defendant, has filed a written Motion to Vacate
Judgment; and
UPON CONSIDERATION WHEREOF, the
Court denies said motion, for reasons stated in
opinion letter dated December 16,2019 by Chief
Judge James J. Reynolds.
And it is Ordered that the Clerk shall deliver a
copy of this Order to the Attorney for the
Commonwealth and to the counsel for defendant,

19

App A-20
Dale Jensen, 606 Bull Run, Staunton, Virginia,
24401.
Enter 12/19/2019
A Copy,
James J. Reynolds (S) Judge

20

App B-1
VIRGINIA:

In the Court of Appeals of Virginia on Thursday the
25 th day of February 2020.
Joseph Louis Paduano,
against

Appellant,

Record No. 0086-20-3
Circuit Court Nos. CR12000477-00 and
CR12000592-00 through, CR1200059400

Commonwealth of Virginia,

Appellee.

From the Circuit Court of Pittsylvania County
It appears that this Court does not have
jurisdiction over this case, Accordingly, the case
hereby is transferred to the Supreme Court of
Virginia pursuant to Code Section 8.01-677.1.
A Copy,
Teste: Cynthia L. McCoy (S)
Clerk

1

App C-1
VIRGINIA:

In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond on
Wednesday the 17th day of November, 2020.
Joseph Louis Paduano,
against

Appellant,

Record No. 200405
Circuit Court Nos. CR12000477-00 and
CR12000592-00 through CR12000594-00

Commonwealth of Virginia,

Appellee.

From the Circuit Court of Pittsylvania County
Upon review of the record in this case and
consideration of the argument submitted in support
of and in opposition to the granting of an appeal, the
Court is of the opinion there is no reversible error in
the judgment complained of. Accordingly, the Court
refuses the petition for appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By: (illegible signature)
Deputy Clerk

App

D-1

VIRGINIA: IN THE CIRCUIT COURT OF
PITTSYLVANIA COUNTY
COMMONWEALTH OF VIRGINIA, Plaintiff,
v.

Case Nos. CR12000477-00 and
CR12000592-00; CR12000593-00;
CR12000594-00

JOSEPH LOUIS PADUANO, Defendant.
MOTION TO VACATE JUDGMENT
Comes now the Defendant, Joseph Louis Paduano
(“Paduano”), by counsel, and hereby respectfully
moves this Honorable Court to issue an Order
granting his Motion to Vacate the Judgment of
convictions rendered in the above styled criminal
cases, on the grounds that those convictions were
void ab initio and null when a court does not have
jurisdiction.

1

App D-2
Long-standing binding legal precedent requires
proper grand jury proceedings to have been followed
in order for a court to have jurisdiction in a criminal
case. In order for this Court to have had jurisdiction,
Paduano had to have been properly indicted by a
grand jury, the indictment must be presented in open
court, and the indictment properly recorded. A
detailed review of the records of this Court show no
indication that Paduano’s grand jury indictment was
ever properly recorded.
Moreover, the improper “indictment” was further
defective because the language of Code of Virginia
§18.2-63 (A) “…without the use of force…” is an
essential element of the offense that would
adequately apprise Paduano with nature and cause
of the accusation. The indictment(s) must contain
every essential element of the crime alleged.

2

App D-3
Accordingly, the convictions in the above styled cases
are void ab initio and legal nullities and should be
declared as such.
Under Virginia law, although a prisoner has in fact
been arraigned on, and has pleaded to, an indictment
not appearing by the record to have been found by
the Grand Jury, and if a third actual term has
passed without such record of the findings, he is
entitled under Va. Code § 19.2-242 to be discharged
from the crime.
Likewise, in this case Paduano should be forever
discharged of the crimes charged because three (3) or
more terms of the Circuit Court have passed without
a trial on valid indictments that were presented in
open court by the Grand Jury and recorded.
Accordingly, Paduano requests that this Honorable
Court rule that be forever discharged for the crimes

3

App D-4
charged and immediately released from
incarceration.
CONCLUSION
Wherefore, for the foregoing reasons, Joseph Louis
Paduano prays that this Honorable Court Grant his
Motion to Vacate Judgments and issue an Order
discharging those judgments and ordering his
immediate release from incarceration.
RESPECTFULLY SUBMITTED, By:
Dale Jensen
Counsel Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run, Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com

4

App E- 1
VIRGINIA
IN THE CIRCUIT COURT OF THE COUNTY OF
PITTSYLVANIA
COMMONWEALTH OF
VIRGINIA,
Plaintiff,
v.
JOSEPH LOUIS
PADUANO,
Defendant.

Case Nos.
CR12000477-00,
CR12000592-00,
CR12000593-00, and
CR12000594-00

MEMORANDUM IN SUPPORT OF MOTION TO
VACATE JUDGMENT
Comes now the Defendant, Joseph Louis
Paduano (“Paduano”), by counsel, presents this
Memorandum in Support of his Motion to Vacate
Judgment (the “Motion”) of convictions rendered in
the above styled criminal cases; and in support of the
Motion states:
I.

Introduction
The Motion should be granted because

Paduano was not properly indicted by a grand jury
according to required procedures in violation of his
Fifth Amendment rights. Long-standing binding

1

App E- 2
legal precedent requires proper grand jury
proceedings to have been followed in order for a court
to have jurisdiction in a criminal case. In order for
this Court to have had jurisdiction, Paduano had to
have been properly indicted by a grand jury, the
indictment must be presented in open court, and the
indictment properly recorded. A detailed review of
the records of this Court show no order shows that
Paduano was ever indicted by a grand jury.
Moreover, the improper indictments were
further defective because the language of Code of
Virginia §18.2-63 (A) “…without the use of force…” is
an essential element of the offense that would
adequately apprise Paduano with nature and cause
of the accusation. The indictment(s) must contain
every essential element of the crime alleged.

2

App E- 3
Accordingly, this Motion should be granted
and the judgment entered on April 28, 2013 should
be vacated.
II.

Background
On May 26, 2012 Tiffany Paduano called

police and alleged that her husband, Paduano, had a
gun and wanted to kill himself, and that she had
heard a gunshot. A subsequent police investigation
ensued that ultimately resulted in charges against
Paduano.
On August 20, 2012, a Grand Jury is alleged to
have indicted Paduano for one (1) count of sexual
intercourse with a child in violation of VA Code
§18.2-63 and one (1) count of unlawful and
intentional possession of a firearm in violation of VA
Code §18.2-308.2(A). In addition, to these two
charges, Paduano was allegedly indicted for one (1)
count animate object sexual penetration in violation

3

App E- 4
of VA Code §18.2-370(A), and one (1) count felony
sexual abuse in violation of VA Code §18.2-370.1 (A).
No record of a court order recording any of these
indictments has been found.
Notably, the alleged indictment brought under
Va. Code §18.2-63 (A) lacked the language “without
the use of force”, which was an essential element of
the offense required to adequately apprise Paduano
with nature and cause of the accusation.

III.

Argument

A. Void Judgments – Long Standing Law
A void judgment, and not subject to time
limitation and can be challenged at any time.
Slaughter v. Commonwealth, 222 Va. 787, 793
(1981). A judgment entered by a court without
jurisdiction is void. Id. A void judgment may be

4

App E- 5
attacked collaterally or directly in any court at any
time. Id.
An order of a court of the Commonwealth can
be “void ab initio,” meaning it was without effect
from the moment it came into existence. In that
respect it is “void.” Such a void order is a nullity
without force or effect and may be collaterally
challenged. Kelley v. Stamos, 285 Va. 68 (2013).
The Virginia Supreme Court held in Kelley:
[A]n order is void ab initio if entered by
a court in the absence of jurisdiction of
the subject matter or over the parties, if
the character of the order is such that
the court had no power to render it , or
if the mode of procedure used by the
court was one that the court “could not
lawfully adopt.”
Id. at 75.

B. The Right to a Grand Jury Indictment
Conferred by the Fifth Amendment to
the United States Constitution Applies

5

App E- 6
to Virginia via the Fourteenth
Amendment
The Fifth Amendment to the United States
Constitution provides in pertinent part:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury,
except in cases arising in the land or naval
forces, or in the Militia, when in actual service
in time of War or public danger.
1. The Grand Jury Right Should Apply
to the States Under the Fourteenth
Amendment Due Process Clause
The right to a grand jury indictment conferred
by the Fifth Amendment to the United States
Constitution should apply to state indictments via
the Fourteenth Amendment. Changes in
constitutional law that have occurred since Hurtado
v. California, 110 U.S. 516, 519 (1884) require this
change.

6

App E- 7
State courts, such as those of Virginia in this
case, are simply not allowed to ignore long-standing
grand jury law and rights of defendants and then
claim that defendants effectively have no recourse. A
fundamental constitutional right, such as the Fifth
Amendment right to a grand jury indictment, or its
judicial equivalent, simply cannot be violated with
impunity, and Virginia courts then claim that right
to be “merely procedural” and subject to waiver by a
defendant’s counsel’s failure to recognize the
violation of the grand jury right and object prior to
appeal.
A Virginia Supreme Court case decided over
70 years ago is flawed and should no longer be valid
law. Hanson v. Smyth, 183 Va. 384, 390-91 (1944).
In Hanson, the Virginia Supreme Court opined
(emphasis added):
While the Fifth Amendment to the Federal
Constitution requires a presentment or

7

App E- 8
indictment in prosecutions under Federal
statutes “for a capital, or otherwise infamous
crime,” the Virginia Constitution contains no
such requirement. Farewell v. Commonwealth,
167 Va. 475, 484, 189 S.E. 321, 325; Pine v.
Commonwealth, 121 Va. 812, 835, 93 S.E. 652;
Guynn v. Commonwealth, 163 Va. 1042, 1046,
177 S.E. 227. In this State the requirement is
merely statutory …
Since the statutory requirement for an
indictment in the present case is not
jurisdictional, the failure of the record to show
affirmatively that the indictment was
returned into court by the grand jury is not
such a defect as will render null and void the
judgment of conviction based thereon.
Hanson, 183 Va. at 390-91.
The Hanson opinion relied upon an incorrect
premise that the Fifth Amendment to the Federal
Constitution did not apply to Virginia under any of
the equal protection clause, the privileges and
immunities clause, or the due process clause of the
Fourteenth Amendment. However, since Hanson
was decided, the United States Supreme Court has
significantly expanded the application of the Bill of
Rights of the Constitution to state law matters under

8

App E- 9
the equal protection portion of the Fourteenth
Amendment. For example; in Griffin v. California,
380 U.S. 609, 615 (1965); the Court specifically held
that the self-incrimination provision of the Fifth
Amendment applied to the States by reason of the
Fourteenth Amendment.
The right to indictment by grand jury was and
is a longstanding right established by the law of
England. See, e.g., Ex parte Wilson, 114 U.S. 417,
423-24, 5 S. Ct. 935, 938 (1885). Without the
intervention of a grand jury, trials were not allowed
for capital crimes, nor for any felony. Id. The right
to a grand jury indictment was so fundamental to the
criminal justice rights of defendants that rights
therefor were placed in the Fifth Amendment of the
Bill of Rights. Id.; Fifth Amendment of the U.S.
Constitution.

9

App E- 10
As the United States Supreme Court has held
(emphasis added):
In England, the grand jury served for
centuries both as a body of accusers sworn to
discover and present for trial persons
suspected of criminal wrongdoing and as a
protector of citizens against arbitrary and
oppressive governmental action. In this
country the Founders thought the grand jury
so essential to basic liberties that they
provided in the Fifth Amendment that federal
prosecution for serious crimes can only be
instituted by “a presentment or indictment of
a Grand Jury.” Cf. Costello v. United States,
350 U.S. 359, 361-362 (1956). The grand jury’s
historic functions survive to this day. Its
responsibilities continue to include both the
determination whether there is probable cause
to believe a crime has been committed and the
protection of citizens against unfounded
criminal prosecutions. Branzburg v. Hayes,
408 U.S. 665, 686-687 (1972).
United States v. Calandra, 414 U.S. 338, 34243, 94 S. Ct. 613, 617 (1974).
In 2010, the Court explained in some detail
the history of application of the Bill of Rights to the
States via the Fourteenth Amendment. McDonald v.
City of Chi., 561 U.S. 742, 761-65, 130 S. Ct. 3020,

10

App E- 11
3032-35 (2010). In McDonald, the Court set forth in
pertinent part (emphasis added):
An alternative theory regarding the
relationship between the Bill of Rights and § 1
of the Fourteenth Amendment was
championed by Justice Black. This theory
held that § 1 of the Fourteenth Amendment
totally incorporated all of the provisions of the
Bill of Rights. See, e.g., Adamson, supra, at
71-72, 67 S. Ct. 1672, 91 L. Ed. 1903 (Black, J.,
dissenting); Duncan, supra, at 166, 88 S. Ct.
1444, 20 L. Ed. 2d 491 (Black, J., concurring).
As Justice Black noted, the chief congressional
proponents of the Fourteenth Amendment
espoused the view that the Amendment made
the Bill of Rights applicable to the States and,
in so doing, overruled this Court’s decision in
Barron. Adamson, supra, at 72, 67 S. Ct.
1672, 91 L. Ed. 1903 (dissenting opinion).
Nonetheless, the Court never has embraced
Justice Black’s “total incorporation” theory.
While Justice Black’s theory was never
adopted, the Court eventually moved in that
direction by initiating what has been called a
process of “selective incorporation,” i.e., the
Court began to hold that the Due Process
Clause fully incorporates particular rights
contained in the first eight Amendments. See,
e.g., Gideon v. Wainright, 372 U.S. 335, 341,
83 S. Ct. 792, 9 L. Ed. 2d 799 (1963); Malloy v.
Hogan, 378 U.S. 1, 5-6, 84 S. Ct. 1489, 12 L.
Ed. 2d 653 (1964); Pointer v. Texas, 380 U.S.
400, 403-404, 85 S. Ct. 1065, 13 L. Ed. 2d 923

11

App E- 12
(1965); Washington v. Texas, 388 U.S. 14, 18,
87 S. Ct. 1920, 18 L. Ed. 2d 1019 (1967);
Duncan, 391 U.S., at 147-148, 88 S. Ct. 1444,
20 L. Ed. 2d 491; Benton v. Maryland, 395
U.S. 784, 794, 89 S. Ct. 2056, 23 L. Ed. 2d 707
(1969).
The decisions during this time abandoned
three of the previously noted characteristics of
the earlier period. The Court made it clear
that the governing standard is not whether
any “civilized system [can] be imagined that
would not accord the particular protection.”
Duncan, 391 U.S., at 149, n. 14, 88 S. Ct. 1444,
20 L. Ed. 2d 491. Instead, the Court inquired
whether a particular Bill of Rights guarantee
is fundamental to our scheme of ordered
liberty and system of justice. Id., at 149, and
n. 14, 88 S. Ct. 1444, 20 L. Ed. 2d 491; see also
id., at 148, 88 S. Ct. 1444, 20 L. Ed. 2d 491
(referring to those “fundamental principles of
liberty and justice which lie at the base of all
our civil and political institutions” (emphasis
added; internal quotation marks omitted)).
The Court also shed any reluctance to hold
that rights guaranteed by the Bill of Rights
met the requirements for protection under the
Due Process Clause. The Court eventually
incorporated almost all of the provisions of the
Bill of Rights. Only a handful of the Bill of
Rights protections remain unincorporated.
Id.

12

App E- 13
Justice Black’s theory is substantively correct
and the Bill of Rights is not an ala carte menu for
courts to pick and choose from. The substantive
protections of the Bill of Rights were adopted to limit
the ability of the government, including its courts, to
infringe upon the basic rights of citizens. No court
should take it upon itself to judicially amend the
Constitution by purporting to pick and choose which
rights of the Bill of Rights should apply and which
should not. All of those rights should be guaranteed
to all citizens at both state and federal levels of
government Paduano respectfully avers that Bill of
Rights applies to the states through the Fourteenth
Amendment in its entirety. Accordingly, any
remaining provisions of the Bill of Rights not
explicitly applied to states via the Fourteenth
Amendment heretofore should be incorporated as

13

App E- 14
jurisprudence moves forward in accordance with
Justice Black’s views.
Paduano acknowledges that McDonald
referenced the Hurtado case from over 130 years ago
concerning grand jury indictments standing for the
premise that jurisprudence to date had not
incorporated the Fifth Amendment’s grand jury
indictment requirement. Id., 561 U.S. at 765 n.13.
However, although the case of Hurtado, 110 U.S. at
519 stopped short of applying the grand jury
provision of the Fifth Amendment to the States via
the Fourteenth Amendment, it affirmatively held
that the due process requirements had to be met as
to indictments. Id., 110 U.S. at 538. The Hurtado
Court specifically held that:
we are unable to say that the substitution for
a presentment or indictment by a grand jury of
the proceeding by information, after
examination and commitment by a magistrate,
certifying to the probable guilt of the
defendant, with the right on his part to the aid

14

App E- 15
of counsel, and to the cross-examination of the
witnesses produced for the prosecution, is not
due process of law.
Id. The Hurtado Court did not hold that
California could ignore indictment rights and laws
established under California law as Virginia courts
did pursuant to in Paduano’s case. The due process
requirement needed to be met even under Hurtado
and the right to a grand jury indictment is
jurisdictional rather than procedural. Virginia still
must meet the due process requirement. That
requirement has simply not been met in Paduano’s
case.
Paduano avers that the Bill of Rights
guarantee of a grand jury indictment is fundamental
to our scheme of ordered liberty and system of justice
under the selective incorporation doctrine if that
standard is deemed applicable to this case.
McDonald, 561 U.S. at 761-65.

15

App E- 16
In order to understand why the right to a
grand indictment is fundamental, it is instructive to
review the history of grand juries and their
equivalents further. The history of grand juries goes
back to early Grecian use of “Dicasteries”, which
were tribunals picked from lists of citizens whose
duty it was to accuse, try, and convict those alleged
to have committed crimes. Bonner, Lawyers and
Litigants in Ancient Athens 36 (1927). Roman law
utilized “Judices”, which functioned similarly.
Patterson, The Administration of Justice in Great
Britain 200 (1936). Grand juries were subsequently
adopted as a part of the English system of law, which
then formed a basis for the legal system of most of
the United States. See, e.g., Whyte, Is the Grand
Jury Necessary?, 45 Wm. and Mary L. Rev. 462-71
(1959). The grand jury system was then brought to
Virginia early in the seventeenth century and has

16

App E- 17
been a part of Virginia’s legal system since that time.
Id. As summarized in the Handbook for Virginia
Grand Jurors (the “Handbook”) that is currently
used by Virginia Courts (emphasis added):
The Grand Jury had its origin more than
seven centuries ago in England from which, in
large part, this country inherited its legal
system. Many legal historians trace its origin
to events in the reign of Henry II and to one of
the articles of the Constitution of Clarendon in
1164. It was recognized in Magna Carta
granted by King John at the demand of the
people in 1215. One of its earliest functions
was to protect citizens from despotic abuse of
power by the king; its other function was to
report those suspected of having committed
criminal offenses.
These two functions are carried forward today
in the work of the Grand Jury, and its
importance in controlling the start of
prosecutions for serious crimes is recognized in
both the Constitution of the United States and
the Constitution of Virginia.
Thus, the Virginia Supreme Court, which is
responsible for the Handbook recognize the
fundamental importance of grand juries in
controlling the start of prosecutions. The Virginia

17

App E- 18
Supreme Court affirmed this fundamental
importance using the Constitution of the United
States and the Constitution of Virginia as primary
authorities.
Federal and state judges have repeatedly
acknowledged the fundamental importance of grand
juries and the right thereto. For example, in an
opinion from the District Court of the Northern
District of California provided a discourse on the
importance of the grand jury right (internal footnote
references omitted, emphasis added):
The institution of the grand jury is a
development which comes to us out of the
mists of early English history. It has
undergone changes, but has been remarkable
stable because the institution has been molded
into an instrument of democratic government,
extraordinarily efficient for reflecting not the
desires or whims of any official or of any class
or party, but the deep feeling of the people. As
such, with its essential elements of plenary
power to investigate and secrecy of its
deliberations, it was preserved by the
Constitution of the United States not only to
protect the defendant but to permit public

18

App E- 19
spirited citizens, chosen by democratic
procedures, to attach corrupt conditions. A
criticism of the action of the grand jury is a
criticism of democracy itself.
The inception of the ‘grand inquest’ is
shrouded in the early reaches of English
history. It was a device whereby originally,
when first authoritatively noticed c. 1166, the
Norman kings of England required answers
from representatives of local units of
government concerning royal property and
franchise and also enforced communal
responsibility for the acts of criminals. By
gradations, the grand juries gave voice to the
fama publica of the locale as to crimes, and
were later recognized in the character of
witnesses. Through hundreds of years, these
characteristics remain inherent. In an early
stage of evolution, the body made presentment
or presented indictments at the behest of
private individuals or the Prosecutor for the
King. Vestiges of all these factors still subsist.
The institution was thus evolved as an
instrument for efficient prosecution of crime,
and as such it has remained until this day.
The principle of secrecy was developed to
protect the King’s Counsel and to permit the
Prosecutors to have influence with the grand
jury, and in modern times it is still useful for
the same purpose. By degrees the secrecy of
proceedings permitted two outstanding
extensions in that grand jurors at times
refused to indict notwithstanding pressure
from the Crown and the Judges. This
prerogative stood the people will in hand

19

App E- 20
during the tyranny of the Stuarts, and, as it
was eulogized by Coke and Blackstone, the
institution was encysted with all its
characteristics in the Fifth Amendment. But
the grand jurors, by use of secrecy of their
proceedings, stubbornly retained the power of
instituting an investigation of their own
knowledge or taking a rumor or suspicion and
expanding it through witnesses. As we shall
see, this comprehensive power also remains at
this hour. The Constitution of the United
States preserved the grand jury with all its
powers and inherent character … the grand
jury is an essential element in the structure of
the federal government now. No other
instrument can cope with organized crime
which cuts across state lines, conspiracies to
overthrow the government of the United
States, or alleged deviations from rectitude by
those who have been entrusted by the
government with public trust …
The grand jury breathes the spirit of a
community into the enforcement of law. Its
effect as an institution for investigation of all,
no matter how highly placed, creates the elan
of democracy. Here the people speak through
their chosen representatives.
United States v. Smyth, 104 F. Supp. 283, 288-91
(N.D. Cal. 1952). The opinion in Smyth provides
solid reasoning showing why the Bill of Rights
guarantee of a grand jury indictment is fundamental

20

App E- 21
to our scheme of ordered liberty and system of
justice.
Likewise, in Virginia in particular, the
Handbook emphasizes the fundamental importance
of grand juries and the right thereto by quoting
Harlan Fiske Stone, late Chief Justice of the Court
(emphasis added):
In time of peace a citizen can perform no
higher public duty than that of Grand Jury
service. No body of citizens exercises public
functions more vital to the administration of
law and order.
The Grand Jury is both a sword and a shield of
justice-a sword, because it is a terror of
criminals; a shield, because it is a protection of
the innocent against unjust prosecution. No
one can be prosecuted for a felony except on an
indictment by a Grand Jury. With its
extensive powers, a Grand Jury must be
motivated by the highest sense of justice, for
otherwise it might find indictments not
supported by the evidence and thus become a
source of oppression to our citizens, or on the
other hand, it might dismiss charges against
those who should be prosecuted.
For all of the stated reasons stated herein, the
grand jury indictment is fundamental to our scheme

21

App E- 22
of ordered liberty and system of justice under the
selective incorporation doctrine because of its
functions of protecting citizens against despotic
abuses of power by sovereigns and to report those
suspected of having committed criminal offenses.
2. The Grand Jury Right Should Apply
to the States Under the Fourteenth
Amendment Privilege and
Immunities Clause
Moreover, Section 1 of the Fourteenth
Amendment requiring that the privileges and
immunities of the Fifth Amendment should apply to
Virginia in Paduano’s case. The argument for
applicability of the privileges and immunities section
of the Fourteenth Amendment is perhaps even more
compelling.
“It cannot be presumed that any clause in the
constitution is intended to be without effect.”

22

App E- 23
Marbury v. Madison, 5 U.S. 137, 1 Cranch 137, 174
(1803) (opinion for the Court by Marshall, C. J.).
The Fifth Amendment to the United States
Constitution states (emphasis added):
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury,
except in cases arising in the land or naval
forces, or in the Militia, when in actual service
in time of War or public danger; nor shall any
person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a
witness against himself, nor be deprived of
life, liberty, or property, without due process of
law; nor shall private property be taken for
public use, without just compensation.
The denial of Paduano’s Petition effectively
renders his grand jury right guaranteed by the Fifth
Amendment without effect. This is error and should
be reversed.
It is noteworthy that all other rights conferred
by the Fifth Amendment other than the grand jury
right have been specifically held by the Court to

23

App E- 24
apply to the states. The double jeopardy prohibition
of the Fifth Amendment has been held to apply to the
States through the Fourteenth Amendment. Benton
v. Maryland, 395 U.S. 784, 794, 89 S. Ct. 2056, 2062
(1969).
Likewise, the Fifth Amendment’s exception
from compulsory self-incrimination is also protected
by the Fourteenth Amendment against abridgment
by the States. Malloy v. Hogan, 378 U.S. 1, 6, 84 S.
Ct. 1489, 1492 (1964).
Further, by using comparable language to that
of the Fifth Amendment, the Fourteenth Amendment
specifically decreed that no person can be deprived of
“life, liberty, or property, without due process of law”.
Therefore, that provision of the Fifth Amendment
also applies to the states. As such, the taking of
private property for public use without just
compensation also applies to the states through the

24

App E- 25
Fourteenth Amendment. See, e.g., Chi., B. & Q. R.
Co. v. Chicago, 166 U.S. 226, 234, 17 S. Ct. 581, 58384 (1897).
Paduano avers that there is simply no valid
reason why Virginia should be allowed to violate
Paduano’s constitutional right to a presentment or
indictment by a grand jury prior to answering for
crimes. It is erroneous for any court to take the
position that the grand jury provision is without
effect while enforcing all other Fifth Amendment
rights. Marbury, 5 U.S. 137.
Concerning the importance of enforcing the
Bill of Rights, Justice Black has stated (emphasis
added):
The first ten amendments [the Bill of Rights]
were proposed and adopted largely because of
fear that Government might unduly interfere
with prized individual liberties. The people
wanted and demanded a Bill of Rights written
into their Constitution. The amendments
embodying the Bill of Rights were intended to
curb all branches of the Federal Government

25

App E- 26
in the fields touched by the amendments -Legislative, Executive, and Judicial. The
Fifth, Sixth, and Eighth Amendments were
pointedly aimed at confining exercise of power
by courts and judges within precise
boundaries, particularly in the procedure used
for the trial of criminal cases. Past history
provided strong reasons for the apprehensions
which brought these procedural amendments
into being and attest the wisdom of their
adoption. For the fears of arbitrary court
action sprang largely from the past use of
courts in the imposition of criminal
punishments to suppress speech, press, and
religion. Hence the constitutional limitations
of courts’ powers were, in the view of the
Founders, essential supplements to the First
Amendment, which was itself designed to
protect the widest scope for all people to
believe and to express the most divergent
political, religious, and other views.
Adamson v. California, 332 U.S. 46, 70, 67 S.
Ct. 1672, 1685 (1947) (Black. J., dissenting)
(footnotes omitted).
The Privileges or Immunities Clause of the
Fourteenth Amendment declares that “[n]o State . . .
shall abridge the privileges or immunities of citizens
of the United States.”

26

App E- 27
As noted by Justice Thomas, constitutional
provisions are “written to be understood by the
voters.” McDonald v. City of Chi., 561 U.S. 742, 813,
130 S. Ct. 3020, 3063 (2010) (Thomas. J., concurring)
(citing, District of Columbia v. Heller, 554 U.S. 570,
576, 128 S. Ct. 2783, 2783 (2008). Thus, in
determining the scope of the Fourteenth
Amendment, it is pertinent to discern what “ordinary
citizens” at the time of ratification of the Fourteenth
Amendment would have understood the Privileges or
Immunities Clause to mean. Id.
At the time that the Fourteenth Amendment,
the terms “privileges” and “immunities” had an
established meaning as synonyms for “rights.” Id.
The two words, standing alone or paired together,
were used interchangeably with the words “rights,”
“liberties,” and “freedoms,” and had been since the
time of Blackstone. Id. 561 U.S. at 814 (citing, 1 W.

27

App E- 28
Blackstone, Commentaries, which described the
“rights and liberties” of Englishmen as “private
immunities” and “civil privileges”). A number of
antebellum judicial decisions used the terms in this
manner. Id. (citing, Magill v. Brown, 16 F. Cas. 408,
428, F. Cas. No. 8952 (No. 8,952) (CC ED Pa. 1833)
(“The words ‘privileges and immunities’ relate to the
rights of persons, place or property; a privilege is a
peculiar right, a private law, conceded to particular
persons or places”). Id.
By the time of the adoption of the Fourteenth
Amendment, it had long been established that both
the States and the Federal Government existed to
preserve their citizens’ inalienable rights, and that
these rights were considered “privileges” or
“immunities” of citizenship. Id.
These principles arose from our country’s
English roots. Id. Fundamental rights, according to

28

App E- 29
English traditions, belonged to all people but became
legally enforceable only when recognized in legal
texts, including acts of Parliament and the decisions
of common-law judges. Id. (citing, B. Bailyn, The
Ideological Origins of the American Revolution 77-79
(1967)).
Notably, concerning such rights, the First
Continental Congress declared in 1774 that the King
had wrongfully denied the colonists “the rights,
liberties, and immunities of free and natural-born
subjects . . . within the realm of England.” Id. (citing,
1 Journals of the Continental Congress 1774-1789, p.
68 (W. Ford. ed. 1904)).
Several years later, the Bill of Rights was
adopted to amend the Constitution to expressly
protect the fundamental rights of citizens against
interference by the Federal Government. Id. 561
U.S. at 818. Consistent with their English heritage,

29

App E- 30
the founding generation generally did not consider
many of the rights identified in these amendments as
new entitlements, but as inalienable rights of all
men, given legal effect by their codification in the
Constitution’s text. Id., 561 U.S. at 818-819 (citing,
inter alia, 1 Annals of Cong. 431-432, 436-437, 440442 (1789) (statement of Rep. Madison) (proposing
Bill of Rights in the First Congress).
The United States Supreme Court’s
subsequent decision in Barron, however, held at the
time it was rendered that the codification of these
rights in the Bill of Rights made them legally
enforceable only against the Federal Government,
not the States. 7 Pet., at 247, 32 U.S. at 469, 8 L. Ed.
at 751.
Section 1 of the Fourteenth Amendment
protects the rights of citizens “of the United States”.
Id. 561 U.S. at 823. In McDonald, Justice Thomas

30

App E- 31
provided evidence that overwhelmingly
demonstrated “that the privileges and immunities of
such citizens included individual rights enumerated
in the Constitution”. Id. Those individual rights also
include those enumerated in the Fifth Amendment,
including the right requiring a grand jury indictment
before being made to answer for any infamous crime.
Notably, when the Fourteenth Amendment
was recommended for adoption, the Joint Committee
on Reconstruction argued “adequate security for
future peace and safety . . . can only be found in such
changes of the organic law as shall determine the
civil rights and privileges of all citizens in all parts of
the republic.” Id. 561 U.S. at 827 (citing, Report of
the Joint Committee on Reconstruction, S. Rep. No.
112, 39th Cong., 1st Sess., 15 (1866); H. R. Rep. No.
30, 39th Cong., 1st Sess., p. XXI (1866).

31

App E- 32
Justice Thomas’ concurring analysis in
McDonald cited to a large body of evidence including
numerous speeches, publications, and legal decisions
as proving that the privileges and immunities clause
of section 1 of the Fourteenth Amendment was
intended and understood to have the purpose to
enforce the Bill of Rights against the states. Id. 561
U.S. at 827-835.
In this case, Paduano had a fundamental right
to constitutionally mandated grand jury indictments
in his case. Indeed, the law of Virginia is fully
compatible with the Fifth Amendment provision in
requiring Grand Jury indictments for crimes such as
those for which Paduano was convicted. This is not a
case where Virginia had any reliance on an alternate
procedure that could be claimed to provide
equivalent privileges and immunities to a grand jury
indictment.

32

App E- 33
Instead of acting properly, this Court chose to
largely ignore the mandated grand jury indictment
process and proceeded to try Paduano without proper
indictments. There was no proper judge signed order
indicting Paduano.
In summary, the grand jury right of the Fifth
Amendment should apply to the states through the
Fourteenth Amendment for the reasons stated
herein. This Court should not be allowed to violate
Paduano’s right to a presentment or indictment from
a Grand Jury and then for Paduano to have no
recourse.
The Fifth Amendment right to a grand jury
indictment applies to the states including, without
limitation, the Commonwealth of Virginia and this
Court.

33

App E- 34
C. Paduano’s defective grand jury
indictments deprived this Court of
Jurisdiction
Paduano avers that the lack of an order of this
Court indicting him, this Court had no jurisdiction
over his case.
A void judgment, is a judgment not subject to
time limitation and can be challenged at any time.
See, e.g., Galpin v. Page, 85 U.S. (18 Wall.) 350, 366
(1873); Slaughter v. Commonwealth, 222 Va. 787,
793 (1981). A judgment entered by a court without
jurisdiction is void. Id. A void judgment may be
attacked collaterally or directly in any court at any
time. Id.
The Virginia legislature has placed statutory
requirements on grand jury procedures in addition to
the long-standing common law and constitutional
requirements. Among other provisions, it is required

34

App E- 35
that grand jury indictments list the name of the
witness relied upon by the grand jury. Va. Code §
19.2-202.
It has also generally been long-standing law in
Virginia, until Hanson was incorrectly decided in
1948, that a failure to record a proper grand jury
indictment in a court’s order book deprived a court
trying a case of jurisdiction. Commonwealth v.
Cawood, 4 Va. 527, 541 (1826). In Cawood, the
Virginia Supreme Court held:
It is undoubtedly true, that before any person
can have judgment rendered against him for a
felony, they must be regularly accused by the
Grand Jury of his country, and his guilt must
be established by the verdict of a jury. The
accusation in due and solemn form, is as
indispensable as the conviction. What, then, is
the solemnity required by Law in making the
accusation? The Bill Indictment is sent or
delivered to the Grand Jury, who, after
hearing all the evidence adduced by the
Commonwealth, decide whether it be true Bill,
or not. If they find it so, the foreman of the
Grand Jury endorses on it, ‘a true Bill,’ and
signs his name as foreman, and then the Bill
is brought into Court by the Whole Grand

35

App E- 36
Jury, and in open Court it is publicly delivered
to the Clerk, who records the fact. It is
necessary that it should be presented publicly
by the Grand Jury; that is the evidence
required by Law to prove that it is sanctioned
by the accusing body, and until it is so
presented by the Grand Jury, with the
endorsement aforesaid, the party charged by it
is not indicted, nor is he required, or bound, to
answer to any charge against him, which is
not so presented.
Id., 4 Va. at 541-542.
Thus, in order for a judgment based upon an
indictment to be valid, an indictment must be proper,
and must be “delivered in court by the grand jury,
and its finding recorded.” Simmons v.
Commonwealth, 89 Va. 156, 157 (1892). Failure to
deliver the indictment in court and record the finding
is a “fatal defect”. Id.
These long-standing principles have been
embodied in both Virginia statutory law and the
Virginia Supreme Court Rules. For example,
Virginia Supreme Court Rule 3A:5(c) requires that a

36

App E- 37
Grand Jury return and presents their indictment
findings in open court and that the indictment be
endorsed ‘A True Bill’ or ‘Not a True Bill’ and signed
by the foreman. Virginia statutes require the Clerk
of the Court to record the Grand Jury indictment
findings in the Order Book in compliance with Va.
Code §§ 17.1-123(A) and 17.1-124 and 17.1-240.
A court speaks only through its orders. In
those cases where the jurisdiction of the court
depends upon compliance with certain mandatory
provisions of law, the court’s order, spread upon its
order book, must show such compliance or
jurisdiction is not obtained. See, e.g., Simmons, 89
Va. at 159; Cawood, 4 Va. at 542.
The Simmons case is particularly pertinent
authority. In Simmons, the defendant was convicted
of first degree murder. Simmons, 89 Va. at 157.
Like Paduano in this case, the defendant in Simmons

37

App E- 38
was convicted and sentenced based upon a grand
jury document, just as in Paduano’s case, that had
allegedly been signed by a grand jury foreman, but
had not been recorded in any order book of the circuit
court. Id. The Lee County Virginia Circuit Court
had found the defendant in Simmons guilty and did
not grant him relief based upon a lack of any
recording of grand jury indictment. Id. However,
the Virginia Supreme Court reversed the conviction
and found that the failure to record the grand jury
indictment in an order book of the circuit court was a
fatal defect. Id.
Under Virginia law, although a prisoner has in
fact been arraigned on, and has pleaded to, an
indictment not appearing by the record to have been
found by the Grand Jury, and if a third actual term
has passed without such record of the findings, he is
entitled under Va. Code § 19.2-242 to be discharged

38

App E- 39
from the crime. Cawood, 4 Va. at 546; Adcock v.
Commonwealth, 49 Va. (Gratt.) 661, 671 (1851).
In this case Paduano should be forever
discharged of the crimes charged because three (3) or
more terms of the Circuit Court have passed without
a trial on valid indictments that were presented in
open court by the Grand Jury and recorded.
Federal Courts have generally fully complied
with the requirements of the Fifth Amendment
concerning grand jury indictments. As a result, the
United States Supreme Court does not appear to
have previously addressed a case in which no order
was entered indicting a defendant in a criminal
matter. In a rare occurrence of non-compliance, the
Fourth Circuit Court of Appeals found that a failure
to properly record a grand jury indictment was a
fatal defect. In its opinion, the Fourth Circuit Court

39

App E- 40
of Appeals stated concerning proper procedures for
grand jury indictments and their importance:
1 Chitty on Crim. Law, 324, describes the
mode in which the grand jury returns the
results of their inquiries to the court, by
indorsing “A True Bill” if found, and “Not a
True Bill” if rejected; and says:
“When the jury have made these indorsements
on the bills, they bring them publicly into
court, and the clerk of the peace at sessions, or
clerk of assize on the circuit, calls all the
jurymen by name, who severally answer to
signify that they are present, and then the
clerk of the peace or assize asks the jury
whether they agreed upon any bills, and bids
them present them to the court, and then the
foreman of the jury hands the indictments to
the clerk of peace or clerk of assize.”
4 Blackstone, 306, also describes the functions
of the grand jury and the methods of its
proceedings, the necessity of 12 at least
assenting to the accusation, and adds:
“And the indictment when so found is publicly
delivered into court.”
A later text-writer (1 Bishop on Crim.
Procedure, § 869) says:
“When the grand jury has found its
indictments, it returns them into open court,
going personally in a body.”

40

App E- 41
Renigar v. United States, 172 F. 646, 648 (4th
Cir. 1909). The importance of following proper
constitutionally based processes was particularly
emphasized in Renigar:
Neither sound reason nor public policy
justifies any departure from settled principles
applicable in criminal prosecutions for
infamous crimes. Even if there were a wide
divergence among the authorities upon this
subject, safety lies in adhering to established
modes of procedure devised for the security of
life and liberty, nor ought the courts in their
abhorrence of crime, nor because of their
anxiety to enforce the law against criminals, to
countenance the careless manner in which the
records of cases involving the life or liberty of
an accused, are often prepared …
Illegitimate and unconstitutional practices get
their first footing in that way, namely, by
silent approaches and slight deviations from
legal modes of procedure. This can only be
obviated by adhering to the rule that
constitutional provisions for the security of
person and property should be liberally
construed. A close and literal construction
deprives them of half their efficacy, and leads
to gradual depreciation of the right as if it
consisted more in sound than in substance. It
is the duty of all the courts to be watchful for
the constitutional rights of the citizen, and

41

App E- 42
against any stealthy encroachments. Their
motto should be Obsta principiis.’”
Renigar, 172 F. at 652, 655.
Paduano recognizes that Renigar has been
criticized and claimed by lower courts to have been
abrogated. See, e.g., United States v. Lennick, 18
F.3d 814, 817 (9th Cir. 1994). However, Renigar has
not been deemed invalid law by a ruling of the
United States Supreme Court, which is the only
court having authority to do so. It is also the case
that Lennick specifically is distinguishable in that
there was actually an order entered in that case that
was compliant other than not being properly entered
in open court. Id. In Paduano’s case, no proper order
of any form was ever entered for his indictments.
In the case at bar, Paduano avers that his
constitutional rights were violated as to never being
properly indicted. There is nothing in the court’s
records that show that a clerk called each of the

42

App E- 43
grand jurors by name to signify that they were
present or asked the grand jury whether they agreed
on any bills. Moreover, this Court has no record of
any indictment against Paduano having been
entered in the Order Book. The failure of this Court
to record in the Order Book, that the Grand Jury had
returned into open court and presented true bill
indictments against Paduano, is a fatal defect in the
indictment process. Paduano contends that the
failure of this Court to record the Grand Jury's
indictment findings in an Order Book in a judge
signed order is a fatal defect that rendered his
indictments a nullity and his convictions void ab
initio for lack of jurisdiction. Cawood, 4 Va. at 541.
Accordingly, Paduano requests that this
Honorable Court grant this Motion and rule that the
failure to indict Paduano are fatal defects that

43

App E- 44
render his indictments nullities and his convictions
void for lack of jurisdiction.

D. Paduano’s further defective grand jury
indictment deprived this Court of
jurisdiction as to the alleged violation
of Va. Code §18.2-63 (A)
Jurisdiction is the power to adjudicate a case
upon the merits and dispose of it as justice may
require. Shelton v. Sydnor, 126 Va. 625, 629, 102
S.E. 83, 85 (1920). This necessarily involves the idea
that there must be jurisdiction of the subject-matter
of the litigation, and also over the parties thereto. If
either is wanting, the resulting judgment is void.
Evans v. Smith-Wythe Airport Comm’n, 255 Va. 69
(1998).
“It is essential to the validity of a judgment or
decree, that the court rendering it shall have
jurisdiction of both the subject-matter and parties.

44

App E- 45
But this is not all, for both of these essentials may
exist and still the judgment or decree may be void,
because the character of the judgment was not such
as the court had the power to render, or because the
mode of procedure employed by the court was such as
it might not lawfully adopt.” Evans v. Smyth-Wythe
Airport Comm’n, 255 Va. 69, 73, 495 S.E.2d 825, 828
(1998) (quoting, Anthony v. Kasey, 83 Va. 338, 340, 5
S.E. 176, 177 (1887)).
Paduano’s 5th, 6th and 14th Constitutional
Rights were violated denying him due process and
the right to be informed of the nature and cause of
the accusations against him.
Virginia statutory law recognizes that a
judgment in any criminal case is subject to being
arrested or reversed upon if it is so defective as to be
in violation of the Constitution. Va. Code § 19.2-227.

45

App E- 46
“In order for an indictment to be “so defective
as to be in violation of the constitution” so that a
final judgment in a criminal case will be declared
void, the defect must have deprived the defendant of
the ability to defend against the charge, this
depriving him of due process as required by the 6th
and 14th Amendments.” Reed v. Commonwealth,
281 Va. 471, 481, 706 S.E. 2d 854, 860 (2011).
Va. Code § 18.2-63 (A) states, “If any person
carnally knows, without the use of force, a child
thirteen years of age or older but under fifteen years
of age, such person shall by guilty of a Class 4
felony.”
“The function of an indictment is to give an
accused notice of the nature and character of
accusations against him so that he can prepare an
adequate defense.” Reed, 281 Va. at 481, 706 S.E. 2d
at 860.

46

App E- 47
Paduano has identified a legally required
matter that was left out of the indictments that
resulted in depriving him of a substantial right and
subjected him to the danger of being tried upon a
charge for which he was not properly indicted.
In the language of Code of Virginia §18.2-63
(A) “…without the use of force…” is an essential
element of the offense that would adequately apprise
Paduano with nature and cause of the accusation.
The indictment(s) must contain every essential
element of the crime alleged. “The Fifth Amendment
guarantees that an individual cannot be prosecuted
for a capital or infamous offense except on
presentment or indictment of a Grand Jury.” U.S.
Constitution Amendment V. In addition, the Sixth
Amendment requires that a defendant must “be
informed of the nature and cause of the accusation”
against him. U.S. Constitution Amendment VI. The

47

App E- 48
criteria against which the sufficiency of an
indictment is judged reflects these guarantees. See
Russell v. United States, 369 U.S. 749, 760-64, 8 L.
Ed. 2d 240, 82, S. Ct. 1038 (1962). “An indictment
must contain the elements of the offense charged,
fairly inform a defendant of the charge, and enable
the defendant to plead double jeopardy as a defense
in a future prosecution for the same offense.” United
States v. Hooker, 841 F. 2d 1225, 1234 (4th Cir.
1988) (en banc) (citing, Hamling v. United States,
418 U.S. 87, 117, 41 L. Ed. 2d 590, 94 S. Ct. 2887
(1974); Russell v. United States, 369 U.S. 749, 76364, 8 L. Ed. 2d 240, 82 S. Ct. 1038 (1962)).
By leaving out or not meeting the language of
“without the use of force” from the indictment(s), the
indictment(s) did not fairly inform Paduano of the
charge. “Without the use of force” is an element of
the crime or alleged offense that should have been

48

App E- 49
proven at trial in order to convict under the Code of
Virginia §18.2-63 (A).
“As long as an indictment sufficiently recites
the elements, the Commonwealth is not required to
include all evidence upon which it plans to rely to
prove a particular offense.” Sims v. Commonwealth,
28 Va. App. 611, 619-620 (1998). However, in the
subject cases, Paduano’s lawyer requested a Bill of
Particulars which request was denied. The elements
of this particular offense(s) were not recited
sufficiently enough, denying Paduano his
Constitutional Rights and causing the judgments of
the offense of §18.2-63(A) for Indictment numbers CR
12000592-00 and CR 12000477-00 to be void.
Indictment numbers CR 12000592-00 and CR
12000477-00 are invalid indictments being used to
obtain a conviction, the character of the judgment
was not such as the court had the power to render.

49

App E- 50

E. Conclusion
Wherefore, for the foregoing reasons, Paduano
prays that this Honorable Court grant this Motion in
its entirety and issue an Order vacating the
judgments against him.
RESPECTFULLY SUBMITTED,
By: ________________________
Dale Jensen
Counsel
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run, Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com
CERTIFICATE OF SERVICE
I hereby certify that the original of the foregoing was,
on the 18th day of October, 2019, sent via Priority
Mail to the Office of the Clerk for the Circuit Court of
Pittsylvania County and a true copy thereof was
served by US Mail to the following:
Robert Haskins
Commonwealth’s Attorney
1 Main St.
Chatham, VA 24531

50

App E- 51
Respectfully Submitted
/s/ Dale R. Jensen
___________________
Dale R. Jensen
Counsel for Joseph Louis Paduano

51

App F- 1
VIRGINIA
IN THE CIRCUIT COURT OF THE COUNTY OF
PITTSYLVANIA
COMMONWEALTH OF
VIRGINIA,
Plaintiff,

Case Nos.
CR12000477-00 and
CR12000592-00;
CR12000593-00;
CR12000594-00

v.
JOSEPH LOUIS
PADUANO,
Defendant.

NOTICE OF APPEAL
Joseph Louis Paduano, by counsel, hereby notices his
appeal to the Virginia Court of Appeals for the denial
of the Motion to Vacate Judgment entered by this
Court on December 16, 2019.
A transcript or statement of facts, testimony, and
other incidents of the case will be filed.

CERTIFICATE
The undersigned certifies as follows:

1

App F- 2
(1) The name and address of appellant is: Joseph
Louis Paduano, c/o Nottoway Correctional Center,
2892 Schutt Rd, Burkeville, VA 23922.
(1) The name, address, and telephone number of
counsel for Defendant is: Dale Jensen, PLC, 606 Bull
Run, Staunton, VA 24401.
(2) The name of appellee is: Commonwealth of
Virginia.
(3) The name, address, and telephone number of
counsel for the appellee is, Mr. Robert Haskins,
Commonwealth’s Attorney, 1 Main St. Chatham, VA
24531.
(4) Appellant avers that the reference Motion to
Vacate Judgment was denied without hearing,
therefore no transcript will be filed pursuant to Rule
5A:8(a).

2

App F- 3
(5) A copy of this Notice of Appeal has been mailed or
delivered to all opposing counsel and to the Clerk of
the Court of Appeals this 14th day of January, 2020.

Dated: January 14, 2020
By: ________________________
Dale Jensen, Counsel (VSB 71109)
Dale Jensen, PLC
606 Bull Run, Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com

3

App F- 4
CERTIFICATE OF SERVICE
I hereby certify that the original of the foregoing was,
on this 14th day of January, 2020, sent via Express
Mail to the Office of the Clerk for the Circuit Court of
Pittsylvania County and a true copy thereof was
served by US Mail to the following:
Robert Haskins
Commonwealth’s Attorney
1 Main St.
Chatham, VA 24531
The undersigned counsel has been retained for this
case.
Respectfully Submitted
/s/ Dale R. Jensen
___________________
Dale R. Jensen
Counsel for Joseph Louis Paduano

4

App G- 1
VIRGINIA SUPREME COURT
JOSEPH LOUIS
PADUANO,
Petitioner,

Record No. _______
Appealed From The
Circuit Court Of The
County of
Pittsylvania Case
Nos. CR12000477-00
and CR12000592-00;
CR12000593-00;
CR12000594-00

v.
Commonwealth of
Virginia,

PETITION FOR
APPEAL

Respondent.

Counsel
Dale Jensen
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run, Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com

1
PETITION FOR APPEAL

App G- 2
TABLE OF CONTENTS
Page
I.
II.
III.
IV.
V.

Assignments of Error……………………………1
Nature of the Case and Material
Proceedings Below……………………………….1
Statement of Facts……………………….………3
Authorities and Argument……………….….....4
Conclusion……………………………………….35

2
PETITION FOR APPEAL

App G- 3
TABLE OF AUTHORITIES
Page
United States Constitution
U.S. Const., Amend. I………………………………..20
U.S. Const., Amend. V.................................. passim
U.S. Const., Amend. VI…………………………33, 34
U.S. Const., Amend. VIII……………………………19
U.S. Const., Amend. XIV……………………. passim

Virginia Statutory Law
Va. Code § 8.01-389…………………………………….3
Va. Code § 17.1-123…………………………..1, 3, 4, 27
Va. Code § 17.1-124……………………………..1, 4, 27
Va. Code § 17.1-240……………………………..1, 4, 27
Va. Code § 18.2-63………………….……2, 4, 5, 33, 34
Va. Code § 18.2-308…………………………………….2
Va. Code § 18.2-370…………………………………….2

3
PETITION FOR APPEAL

App G- 4
Va. Code § 18.2-70.1…………………………………….2
Va. Code § 19.2-202……………………………………25
Va. Code § 19.2-207……………………………………33
Va. Code § 19.2-242……………………………………28

Page
Virginia Court Rules
Supreme Court Rule 3A:5 ……………………………..27

Case Law
Adamson v. California, 332 U.S. 46
(1947) ……………………………………….. 9, 10, 19, 20
Adcock v. Commonwealth, 49 Va. (Gratt.)
661 (1851)………………………………………..28
Anthony v. Kasey, 83 Va. 338, 5 S.E. 176 (1887)….32
Barron v. Baltimore, 32 U.S. 243 (1833)…...10, 22, 23
Benton v. Maryland, 395 U.S. 784 (1969)………10, 18
Branzburg v. Hayes, 408 U.S. 665 (1972)…………..9

4
PETITION FOR APPEAL

App G- 5
Chi., B. & Q. R. Co. v. Chicago, 166 U.S. 226
(1897)……………………………………………..19
Commonwealth v. Cawood, 4 Va. 527, 541
(1826)……………………………..……..26, 28, 31
Costello v. United States, 350 U.S. 359 (1956)……..9
District of Columbia v. Heller, 554 U.S. 570
(2008)…………………………………….………20
Duncan v. Louisiana, 391 U.S. 145 (1968)……….9, 10
Ex parte Wilson, 114 U.S. 417 (1885)…………..….....8
Farewell v. Commonwealth, 167 Va. 475 (1937)….…7
Galpin v. Page, 85 U.S. (18 Wall.) 350 (1873)…...…25
Gideon v. Wainright, 372 U.S. 335 (1963)……….....10
Griffin v. California, 380 U.S. 609, 615 (1965).…......8
Guynn v. Commonwealth, 163 Va. 1042 (1934)……..7
Hamling v. United States, 418 U.S. 87, 41 L. Ed. 2d
590, 94 S. Ct. 2887 (1974) ……………………………..34
Hanson v. Smyth, 183 Va. 384 (1944)………………7-8
Hurtado v. California, 110 U.S. 516 (1884)….7, 11-12

5
PETITION FOR APPEAL

App G- 6
Kelley v. Stamos, 285 Va. 68 (2013)……………….5, 6
Magill v. Brown, 16 F. Cas. 408, 428, F. Cas. No.
8952 (No. 8,952) (CC ED Pa. 1833)………….21
Malloy v. Hogan, 378 U.S. 1 (1964)……………..10, 18
Marbury v. Madison, 5 U.S. 137 (1803)…….…..17, 19
McDonald v. City of Chi.,561 U.S. 742
(2010)…………………………………………..9-13, 20-24
Pine v. Commonwealth, 121 Va. 812 (1917)…………7
Pointer v. Texas, 380 U.S. 400 (1965)……………….10
Renigar v. United States, 172 F. 646
(4th Cir. 1909)……………………………….29-30
Simmons v. Commonwealth, 89 Va. 156 (1892)..26-27
Sims v. Commonwealth, 28 Va. App. 6110
(1998) …………………………………………34-35
Slaughter v. Commonwealth, 222 Va. 787 (1981).5,25
Washington v. Texas, 388 U.S. 14 (1967)…………..10
United States v. Calandra, 414 U.S. 338 (1974)……9
United States v. Hooker, 841 F. 2d 1225, 1234 (4th

6
PETITION FOR APPEAL

App G- 7
Cir. 1988)………………………………………………...34
United States v. Lennick, 18 F.3d 814
(9th Cir. 1994)…………………………………...30
United States v. Smyth, 104 F. Supp. 283
(N.D. Cal. 1952)………………………….….15-16

Secondary Authority
1 Chitty on Crim. Law, 324……………………………29
1 Annals of Cong. (1789)……………………………….22
1 Bishop on Crim. Procedure, § 869………………….29
1 Journals of the Continental Congress 1774-1789,
(W. Ford. ed. 1904)……………………………..22
4 Blackstone, 306……………………………………….29
B. Bailyn, The Ideological Origins of the American
Revolution (1967)………………………….……22
Bonner, Lawyers and Litigants in Ancient Athens
(1927)……………………………………………..13
Handbook for Virginia Grand Jurors……………13-17

7
PETITION FOR APPEAL

App G- 8
Patterson, The Administration of Justice in Great
Britain (1936)……………………………………13
Report of the Joint Committee on Reconstruction,
S. Rep. No. 112, 39th Cong., 1st Sess., 15
(1866); H. R. Rep. No. 30, 39th Cong., 1st
Sess., p. XXI (1866)……………………………..23
Whyte, Is the Grand Jury Necessary?, 45 Wm.
and Mary L. Rev. 462-71 (1959)………………13

8
PETITION FOR APPEAL

App G- 9

I.

ASSIGNMENTS OF ERROR.
The Circuit Court of the County of

Pittsylvania (the “Circuit Court”) erred in denying
the Motion to Vacate Judgment (the “Motion”) filed
by Joseph Louis Paduano (“Paduano”) because the
Circuit Court denial was in blatant violation of the
Fifth Amendment to the United States Constitution
and relied upon case law that should be held as no
longer valid. This error was preserved in the Motion
and its accompanying Memorandum in Support of
the Motion filed by Paduano.
This Petition involves a substantial
constitutional question as a determinative issue or
matters of significant precedential value.

II.

NATURE OF THE CASE AND

9

PETITION FOR APPEAL

App G- 10
MATERIAL PROCEEDINGS BELOW
This Petition for Appeal arises pursuant to
the Motion, which was filed by Paduano to vacate
judgments rendered against him.
Documents of the Circuit Court purported to
indict Paduano, but those documents show that
none of Paduano’ indictments were compliant with
Virginia law. There is no evidence to indicate that
the indictments were presented in open court or
recorded via a judge signed order pursuant to Va.
Code §§ 17.1-123(A), 17.1-124, and 17.1-240.
Moreover, the improper indictments were
further defective because the language of Code of
Virginia §18.2-63 (A) “…without the use of force…”
is an essential element of the offense that would
adequately apprise Paduano with nature and cause
of the accusation. The indictment(s) must contain

10
PETITION FOR APPEAL

App G- 11
every essential element of the crime alleged.
On May 26, 2012 Tiffany Paduano called
police and alleged that her husband, Paduano, had a
gun and wanted to kill himself, and that she had
heard a gunshot. A subsequent police investigation
ensued that ultimately resulted in charges against
Paduano.
On August 20, 2012, a Grand Jury is alleged
to have indicted Paduano for one (1) count of sexual
intercourse with a child in violation of VA Code
§18.2-63 and one (1) count of unlawful and
intentional possession of a firearm in violation of VA
Code §18.2-308.2(A). In addition, to these two
charges, Paduano was allegedly indicted for one (1)
count animate object sexual penetration in violation
of VA Code §18.2-370(A), and one (1) count felony
sexual abuse in violation of VA Code §18.2-370.1
(A). No record of a court order recording any of

11
PETITION FOR APPEAL

App G- 12
these indictments has been found.
Notably, the alleged indictment brought
under Va. Code §18.2-63 (A) lacked the language
“without the use of force”, which was an essential
element of the offense required to adequately
apprise Paduano with nature and cause of the
accusation.
Paduano filed the Motion on or about
November 27, 2019.
On December 16, 2019, the Circuit
Court denied the Motion and entered the Order
denying the Motion.
Paduano timely filed a Notice of Appeal
on or about January 15, 2020. On February 25,
2020 the Virginia Court of Appeals, which assigned
Record No. 0086-20-3 to the case, transferred the
appeal to this Court.

12
PETITION FOR APPEAL

App G- 13

III.

STATEMENT OF FACTS

A detailed review of Circuit Court records has
revealed that no order signed by a judge was ever
entered indicting Paduano. The mandatory
provisions of Va. Code § 17.1-123 (A) state:
[a]ll orders that make up each day's proceedings
of every circuit court shall be recorded by the
clerk in a book known as the order book. Orders
that make up each day's proceedings that have
been recorded in the order book shall be deemed
the official record pursuant to § 8.01-389 when (i)
the judge's signature is shown in the order, (ii)
the judge's signature is shown in the order book,
or (iii) an order is recorded in the order book on
the last day of each term showing the signature of
each judge presiding during the term.
IV.

AUTHORITIES AND ARGUMENT

At its core, this Petition for Appeal (the
“Petition”) asks this Court to reverse earlier
judgments and affirmatively acknowledge that no
court, including the United States Supreme Court
has the authority to amend the United States
Constitution by judicial fiat. The right to a grand

13
PETITION FOR APPEAL

App G- 14
jury indictment is guaranteed by the Fifth
Amendment, which applies to Virginia via the
Fourteenth Amendment. Past legal error by courts,
including this Court and the United States Supreme
Court, simply should not be allowed to stand under
the plain language of the United States
Constitution.
This Petition should be granted because
Paduano was never indicted in accordance with the
requirements of Virginia law. Pursuant to the Fifth
Amendment, an indictment is a bedrock
requirement for a court to have jurisdiction to enter
a valid criminal judgment under Virginia law.
Documents of the Circuit Court purported to
indict Paduano, but those documents show that
none of Paduano’ indictments were compliant with
Virginia law. Indictments were never entered in an
Order Book via a judge signed order in compliance

14
PETITION FOR APPEAL

App G- 15
with Va. Code §§ 17.1-123(A), 17.1-124, and 17.1240.
Moreover, the alleged indictment brought
under Va. Code §18.2-63 (A) lacked the language
“without the use of force”, which was an essential
element of the offense required to adequately apprise
Paduano with nature and cause of the accusation.
The Petition relies upon a well-established
rule that when a grand jury returns an indictment,
the grand jury verdict must be presented in open
court and the facts recorded by an order signed by a
judge; and until this is done the accused is not
indicted.
Because no such indictment was ever signed
by a judge or recorded, the judgments against
Paduano should be vacated.

1.

Argument

15
PETITION FOR APPEAL

App G- 16
A. Void Judgments – Long Standing Law
A void judgment, and not subject to time
limitation and can be challenged at any time.

Slaughter v. Commonwealth, 222 Va. 787, 793
(1981). A judgment entered by a court without
jurisdiction is void. Id. A void judgment may be
attacked collaterally or directly in any court at any
time. Id.
An order of a court of the Commonwealth can
be “void ab initio,” meaning it was without effect
from the moment it came into existence. In that
respect it is “void.” Such a void order is a nullity
without force or effect and may be collaterally
challenged. Kelley v. Stamos, 285 Va. 68 (2013).
The Virginia Supreme Court held in Kelley:
[A]n order is void ab initio if entered by
a court in the absence of jurisdiction of
the subject matter or over the parties, if
the character of the order is such that
the court had no power to render it , or
if the mode of procedure used by the

16

PETITION FOR APPEAL

App G- 17
court was one that the court “could not
lawfully adopt.”
Id. at 75.

B. The Right to a Grand Jury Indictment
Conferred by the Fifth Amendment to
the United States Constitution Applies
to Virginia via the Fourteenth
Amendment
The Fifth Amendment to the United States
Constitution provides in pertinent part (emphasis
added):
No person shall be held to
answer for a capital, or otherwise
infamous crime, unless on a
presentment or indictment of a
Grand Jury, except in cases arising
in the land or naval forces, or in the
Militia, when in actual service in time
of War or public danger.
1. The Grand Jury Right Applies to the
States Under the Fourteenth

17
PETITION FOR APPEAL

App G- 18
Amendment Due Process Clause
The right to a grand jury indictment
conferred by the Fifth Amendment to the United
States Constitution should apply to state
indictments via the Fourteenth Amendment.
Changes in constitutional law that have occurred
since Hurtado v. California, 110 U.S. 516, 519
(1884) require this change.
State courts, such as those of Virginia in this
case, are simply not allowed to ignore long-standing
grand jury law and rights of defendants and then
claim that defendants effectively have no recourse.
A fundamental constitutional right, such as the
Fifth Amendment right to a grand jury indictment,
or its judicial equivalent, simply cannot be violated
with impunity, and Virginia courts then claim that
right to be “merely procedural” and subject to
waiver by a defendant’s counsel’s failure to

18
PETITION FOR APPEAL

App G- 19
recognize the violation of the grand jury right and
object prior to appeal.
A Virginia Supreme Court case decided over
70 years ago is flawed and should no longer be valid
law. Hanson v. Smyth, 183 Va. 384, 390-91 (1944).
In Hanson, the Virginia Supreme Court
opined (emphasis added):
While the Fifth Amendment to the
Federal Constitution requires a
presentment or indictment in
prosecutions under Federal
statutes “for a capital, or otherwise
infamous crime,” the Virginia
Constitution contains no such
requirement. Farewell v.
Commonwealth, 167 Va. 475, 484, 189
S.E. 321, 325; Pine v. Commonwealth,
121 Va. 812, 835, 93 S.E. 652; Guynn v.
Commonwealth, 163 Va. 1042, 1046,
177 S.E. 227. In this State the
requirement is merely statutory …
Since the statutory requirement for an
indictment in the present case is not
jurisdictional, the failure of the record
to show affirmatively that the
indictment was returned into court by
the grand jury is not such a defect as
will render null and void the judgment
of
conviction based

19

PETITION FOR APPEAL

App G- 20
thereon.

Hanson, 183 Va. at 390-91.
The Hanson opinion relied upon a premise
that the Fifth Amendment to the Federal
Constitution did not apply to Virginia under any of
the equal protection clause, the privileges and
immunities clause, or the due process clause of the
Fourteenth Amendment. However, since Hanson
was decided, the United States Supreme Court has
significantly expanded the application of the Bill of
Rights of the Constitution to state law matters
under the equal protection portion of the Fourteenth
Amendment. For example; in Griffin v. California,
380 U.S. 609, 615 (1965); the Court specifically held
that the self-incrimination provision of the Fifth
Amendment applied to the States by reason of the
Fourteenth Amendment.
The right to indictment by grand jury was

20
PETITION FOR APPEAL

App G- 21
and is a longstanding right established by the law of
England. See, e.g., Ex parte Wilson, 114 U.S. 417,
423-24, 5 S. Ct. 935, 938 (1885). Without the
intervention of a grand jury, trials were not allowed
for capital crimes, nor for any felony. Id. The right
to a grand jury indictment was so fundamental to
the criminal justice rights of defendants that rights
therefor were placed in the Fifth Amendment of the
Bill of Rights. Id.; Fifth Amendment of the U.S.
Constitution.
As the United States Supreme Court has held
(emphasis added):
In England, the grand jury served for
centuries both as a body of accusers
sworn to discover and present for trial
persons suspected of criminal
wrongdoing and as a protector of
citizens against arbitrary and
oppressive governmental action. In
this country the Founders thought the
grand jury so essential to basic
liberties that they provided in the Fifth
Amendment that federal prosecution
for serious crimes can only be

21

PETITION FOR APPEAL

App G- 22
instituted by “a presentment or
indictment of a Grand Jury.” Cf.
Costello v. United States, 350 U.S. 359,
361-362 (1956). The grand jury’s
historic functions survive to this day.
Its responsibilities continue to include
both the determination whether there
is probable cause to believe a crime has
been committed and the protection of
citizens against unfounded criminal
prosecutions. Branzburg v. Hayes, 408
U.S. 665, 686-687 (1972).

United States v. Calandra, 414 U.S. 338, 342-43, 94
S. Ct. 613, 617 (1974).
In 2010, the Court explained in some detail
the history of application of the Bill of Rights to the
States via the Fourteenth Amendment. McDonald

v. City of Chi., 561 U.S. 742, 761-65, 130 S. Ct.
3020, 3032-35 (2010). In McDonald, the Court set
forth in pertinent part (emphasis added):
An alternative theory regarding the
relationship between the Bill of Rights
and § 1 of the Fourteenth Amendment
was championed by Justice Black.
This theory held that § 1 of the
Fourteenth Amendment totally
incorporated all of the provisions of the

22
PETITION FOR APPEAL

App G- 23
Bill of Rights. See, e.g., Adamson,
supra, at 71-72, 67 S. Ct. 1672, 91 L.
Ed. 1903 (Black, J., dissenting);
Duncan, supra, at 166, 88 S. Ct. 1444,
20 L. Ed. 2d 491 (Black, J., concurring).
As Justice Black noted, the chief
congressional proponents of the
Fourteenth Amendment espoused the
view that the Amendment made the
Bill of Rights applicable to the States
and, in so doing, overruled this Court’s
decision in Barron. Adamson, supra,
at 72, 67 S. Ct. 1672, 91 L. Ed. 1903
(dissenting opinion). Nonetheless, the
Court never has embraced Justice
Black’s “total incorporation” theory.
While Justice Black’s theory was never
adopted, the Court eventually moved in
that direction by initiating what has
been called a process of “selective
incorporation,” i.e., the Court began to
hold that the Due Process Clause fully
incorporates particular rights
contained in the first eight
Amendments. See, e.g., Gideon v.
Wainright, 372 U.S. 335, 341, 83 S. Ct.
792, 9 L. Ed. 2d 799 (1963); Malloy v.
Hogan, 378 U.S. 1, 5-6, 84 S. Ct. 1489,
12 L. Ed. 2d 653 (1964); Pointer v.
Texas, 380 U.S. 400, 403-404, 85 S. Ct.
1065, 13 L. Ed. 2d 923 (1965);
Washington v. Texas, 388 U.S. 14, 18,
87 S. Ct. 1920, 18 L. Ed. 2d 1019
(1967); Duncan, 391 U.S., at 147-148,
88 S. Ct. 1444, 20 L. Ed. 2d 491;
Benton v. Maryland, 395 U.S. 784, 794,

23

PETITION FOR APPEAL

App G- 24
89 S. Ct. 2056, 23 L. Ed. 2d 707 (1969).
The decisions during this time
abandoned three of the previously
noted characteristics of the earlier
period. The Court made it clear that
the governing standard is not whether
any “civilized system [can] be imagined
that would not accord the particular
protection.” Duncan, 391 U.S., at 149,
n. 14, 88 S. Ct. 1444, 20 L. Ed. 2d 491.
Instead, the Court inquired whether a
particular Bill of Rights guarantee is
fundamental to our scheme of ordered
liberty and system of justice. Id., at
149, and n. 14, 88 S. Ct. 1444, 20 L. Ed.
2d 491; see also id., at 148, 88 S. Ct.
1444, 20 L. Ed. 2d 491 (referring to
those “fundamental principles of
liberty and justice which lie at the base
of all our civil and political
institutions” (emphasis added; internal
quotation marks omitted)).
The Court also shed any reluctance to
hold that rights guaranteed by the Bill
of Rights met the requirements for
protection under the Due Process
Clause. The Court eventually
incorporated almost all of the
provisions of the Bill of Rights. Only a
handful of the Bill of Rights protections
remain unincorporated.

Id.
Paduano avers that Justice Black’s view is

24
PETITION FOR APPEAL

App G- 25
substantively correct and the Bill of Rights is not an
ala carte menu for courts to pick and choose from.
The substantive protections of the Bill of Rights
were adopted to limit the ability of the government,
including its courts, to infringe upon the basic rights
of citizens. No court should take it upon itself to
judicially amend the Constitution by purporting to
pick and choose which rights of the Bill of Rights
should apply and which should not. All of those
rights should be guaranteed to all citizens at both
state and federal levels of government Paduano
respectfully avers that Bill of Rights applies to the
states through the Fourteenth Amendment in its
entirety. Accordingly, any remaining provisions of
the Bill of Rights not explicitly applied to states via
the Fourteenth Amendment heretofore should be
incorporated as jurisprudence moves forward in
accordance with Justice Black’s views and the plain

25
PETITION FOR APPEAL

App G- 26
language of the Constitution.
Paduano acknowledges that McDonald
referenced the Hurtado case from over 130 years
ago concerning grand jury indictments standing for
the premise that jurisprudence to date had not
incorporated the Fifth Amendment’s grand jury
indictment requirement. Id., 561 U.S. at 765 n.13.
However, although the case of Hurtado, 110 U.S. at
519 stopped short of applying the grand jury
provision of the Fifth Amendment to the States via
the Fourteenth Amendment, it affirmatively held
that the due process requirements had to be met as
to indictments. Id., 110 U.S. at 538. The Hurtado
Court specifically held that:
we are unable to say that the
substitution for a presentment or
indictment by a grand jury of the
proceeding by information, after
examination and commitment by a
magistrate, certifying to the probable
guilt of the defendant, with the right
on his part to the aid of counsel, and to

26

PETITION FOR APPEAL

App G- 27
the cross-examination of the witnesses
produced for the prosecution, is not due
process of law.

Id.
This ruling was and is erroneous because the
Fifth Amendment right to a grand jury is separate
and independent from the due process rights
enumerated in the Fifth Amendment and the
Fourteenth Amendment. It is legal error to attempt
to subsume the grand jury right to separate and
distinct due process provisions.
Moreover, the Hurtado Court did not hold
that California could ignore indictment rights and
laws established under California law as Virginia
courts did pursuant to in Paduano’ case. The due
process requirement needed to be met even under

Hurtado and the right to a grand jury indictment is
jurisdictional rather than procedural. Virginia still
must meet the due process requirement. That

27
PETITION FOR APPEAL

App G- 28
requirement has simply not been met in Paduano’
case.
Paduano avers that the Bill of Rights
guarantee of a grand jury indictment is
fundamental to our scheme of ordered liberty and
system of justice under the selective incorporation
doctrine if that standard is deemed applicable to
this case. McDonald, 561 U.S. at 761-65.
In order to understand why the right to a
grand indictment is fundamental, it is instructive to
review the history of grand juries and their
equivalents further. The history of grand juries
goes back to early Grecian use of “Dicasteries”,
which were tribunals picked from lists of citizens
whose duty it was to accuse, try, and convict those
alleged to have committed crimes. Bonner, Lawyers
and Litigants in Ancient Athens 36 (1927). Roman
law utilized “Judices”, which functioned similarly.

28
PETITION FOR APPEAL

App G- 29
Patterson, The Administration of Justice in Great
Britain 200 (1936). Grand juries were subsequently
adopted as a part of the English system of law,
which then formed a basis for the legal system of
most of the United States. See, e.g., Whyte, Is the
Grand Jury Necessary?, 45 Wm. and Mary L. Rev.
462-71 (1959). The grand jury system was then
brought to Virginia early in the seventeenth century
and has been a part of Virginia’s legal system since
that time. Id. As summarized in the Handbook for
Virginia Grand Jurors (the “Handbook”) that is
currently used by Virginia Courts (emphasis added):
The Grand Jury had its origin more
than seven centuries ago in England
from which, in large part, this country
inherited its legal system. Many legal
historians trace its origin to events in
the reign of Henry II and to one of the
articles of the Constitution of
Clarendon in 1164. It was recognized
in Magna Carta granted by King John
at the demand of the people in 1215.
One of its earliest functions was to
protect citizens from despotic abuse of

29

PETITION FOR APPEAL

App G- 30
power by the king; its other function
was to report those suspected of having
committed criminal offenses.
These two functions are carried
forward today in the work of the Grand
Jury, and its importance in controlling
the start of prosecutions for serious
crimes is recognized in both the
Constitution of the United States and
the Constitution of Virginia.
Thus, the Virginia Supreme Court, which is
responsible for the Handbook recognize the
fundamental importance of grand juries in
controlling the start of prosecutions. The Virginia
Supreme Court affirmed this fundamental
importance using the Constitution of the United
States and the Constitution of Virginia as primary
authorities.
Federal and state judges have repeatedly
acknowledged the fundamental importance of grand
juries and the right thereto. For example, in an
opinion from the District Court of the Northern

30
PETITION FOR APPEAL

App G- 31
District of California provided a discourse on the
importance of the grand jury right (internal footnote
references omitted, emphasis added):
The institution of the grand jury is a
development which comes to us out of
the mists of early English history. It
has undergone changes, but has been
remarkable stable because the
institution has been molded into an
instrument of democratic government,
extraordinarily efficient for reflecting
not the desires or whims of any official
or of any class or party, but the deep
feeling of the people. As such, with its
essential elements of plenary power to
investigate and secrecy of its
deliberations, it was preserved by the
Constitution of the United States not
only to protect the defendant but to
permit public spirited citizens, chosen
by democratic procedures, to attach
corrupt conditions. A criticism of the
action of the grand jury is a criticism of
democracy itself.
The inception of the ‘grand inquest’ is
shrouded in the early reaches of
English history. It was a device
whereby originally, when first
authoritatively noticed c. 1166, the
Norman kings of England required
answers from representatives of local
units of government concerning royal
property and franchise and also

31

PETITION FOR APPEAL

App G- 32
enforced communal responsibility for
the acts of criminals. By gradations,
the grand juries gave voice to the fama
publica of the locale as to crimes, and
were later recognized in the character
of witnesses. Through hundreds of
years, these characteristics remain
inherent. In an early stage of evolution,
the body made presentment or
presented indictments at the behest of
private individuals or the Prosecutor
for the King. Vestiges of all these
factors still subsist.
The institution was thus evolved as an
instrument for efficient prosecution of
crime, and as such it has remained
until this day. The principle of secrecy
was developed to protect the King’s
Counsel and to permit the Prosecutors
to have influence with the grand jury,
and in modern times it is still useful
for the same purpose. By degrees the
secrecy of proceedings permitted two
outstanding extensions in that grand
jurors at times refused to indict
notwithstanding pressure from the
Crown and the Judges. This
prerogative stood the people will in
hand during the tyranny of the
Stuarts, and, as it was eulogized by
Coke and Blackstone, the institution
was encysted with all its
characteristics in the Fifth
Amendment. But the grand jurors, by
use of secrecy of their proceedings,
stubbornly retained the power of

32

PETITION FOR APPEAL

App G- 33
instituting an investigation of their
own knowledge or taking a rumor or
suspicion and expanding it through
witnesses. As we shall see, this
comprehensive power also remains at
this hour. The Constitution of the
United States preserved the grand jury
with all its powers and inherent
character … the grand jury is an
essential element in the structure of
the federal government now. No other
instrument can cope with organized
crime which cuts across state lines,
conspiracies to overthrow the
government of the United States, or
alleged deviations from rectitude by
those who have been entrusted by the
government with public trust …
The grand jury breathes the spirit of a
community into the enforcement of
law. Its effect as an institution for
investigation of all, no matter how
highly placed, creates the elan of
democracy. Here the people speak
through their chosen representatives.

United States v. Smyth, 104 F. Supp. 283, 288-91
(N.D. Cal. 1952). The opinion in Smyth provides
solid reasoning showing why the Bill of Rights
guarantee of a grand jury indictment is
fundamental to our scheme of ordered liberty and

33
PETITION FOR APPEAL

App G- 34
system of justice.
Likewise, in Virginia in particular, the
Handbook emphasizes the fundamental importance
of grand juries and the right thereto by quoting
Harlan Fiske Stone, late Chief Justice of the United
States Supreme Court (emphasis added):
In time of peace a citizen can perform
no higher public duty than that of
Grand Jury service. No body of
citizens exercises public functions more
vital to the administration of law and
order.
The Grand Jury is both a sword and a
shield of justice-a sword, because it is a
terror of criminals; a shield, because it
is a protection of the innocent against
unjust prosecution. No one can be
prosecuted for a felony except on an
indictment by a Grand Jury. With its
extensive powers, a Grand Jury must
be motivated by the highest sense of
justice, for otherwise it might find
indictments not supported by the
evidence and thus become a source of
oppression to our citizens, or on the
other hand, it might dismiss charges
against those who should be
prosecuted.

34
PETITION FOR APPEAL

App G- 35
For all of the stated reasons stated herein,
the grand jury indictment is fundamental to our
scheme of ordered liberty and system of justice
under the selective incorporation doctrine because of
its functions of protecting citizens against despotic
abuses of power by sovereigns and to report those
suspected of having committed criminal offenses.
2. The Grand Jury Right Should Apply
to the States Under the Fourteenth
Amendment Privilege and
Immunities Clause
Moreover, Section 1 of the Fourteenth
Amendment requiring that the privileges and
immunities of the Fifth Amendment should apply to
Virginia in Paduano’ case. The argument for
applicability of the privileges and immunities
section of the Fourteenth Amendment is perhaps

35
PETITION FOR APPEAL

App G- 36
even more compelling.
“It cannot be presumed that any clause in the
constitution is intended to be without effect.”

Marbury v. Madison, 5 U.S. 137, 1 Cranch 137, 174
(1803) (opinion for the Court by Marshall, C. J.).
The Fifth Amendment to the United States
Constitution states (emphasis added):
No person shall be held to
answer for a capital, or otherwise
infamous crime, unless on a
presentment or indictment of a
Grand Jury, except in cases arising
in the land or naval forces, or in the
Militia, when in actual service in time
of War or public danger; nor shall any
person be subject for the same offence
to be twice put in jeopardy of life or
limb; nor shall be compelled in any
criminal case to be a witness against
himself, nor be deprived of life, liberty,
or property, without due process of law;
nor shall private property be taken for
public use, without just compensation.
The denial of Paduano’ Motion effectively
renders his grand jury right guaranteed by the Fifth

36
PETITION FOR APPEAL

App G- 37
Amendment without effect. This is error and should
be reversed.
It is noteworthy that all other rights
conferred by the Fifth Amendment other than the
grand jury right have been specifically held by the
Court to apply to the states. The double jeopardy
prohibition of the Fifth Amendment has been held
to apply to the States through the Fourteenth
Amendment. Benton, 395 U.S. at 794, 89 S. Ct. at
2062.
Likewise, the Fifth Amendment’s exception
from compulsory self-incrimination is also protected
by the Fourteenth Amendment against abridgment
by the States. Malloy, 378 U.S. at 6, 84 S. Ct. at
1492.
Further, by using comparable language to
that of the Fifth Amendment, the Fourteenth
Amendment specifically decreed that no person can

37
PETITION FOR APPEAL

App G- 38
be deprived of “life, liberty, or property, without due
process of law”. Therefore, that provision of the
Fifth Amendment also applies to the states.
Finally, the taking of private property for
public use without just compensation also applies to
the states through the Fourteenth Amendment.
See, e.g., Chi., B. & Q. R. Co. v. Chicago, 166 U.S.
226, 234, 17 S. Ct. 581, 583-84 (1897).
Paduano avers that there is simply no valid
reason why Virginia should be allowed to violate
Paduano’ constitutional right to a presentment or
indictment by a grand jury prior to answering for
crimes. It is erroneous for any court to take the
position that the grand jury provision is without
effect while enforcing all other Fifth Amendment
rights. Marbury, 5 U.S. 137.
Concerning the importance of enforcing the
Bill of Rights, Justice Black has stated (emphasis

38
PETITION FOR APPEAL

App G- 39
added):
The first ten amendments [the Bill of
Rights] were proposed and adopted
largely because of fear that
Government might unduly interfere
with prized individual liberties. The
people wanted and demanded a Bill of
Rights written into their Constitution.
The amendments embodying the Bill of
Rights were intended to curb all
branches of the Federal Government in
the fields touched by the amendments - Legislative, Executive, and Judicial.
The Fifth, Sixth, and Eighth
Amendments were pointedly aimed at
confining exercise of power by courts
and judges within precise boundaries,
particularly in the procedure used for
the trial of criminal cases. Past history
provided strong reasons for the
apprehensions which brought these
procedural amendments into being and
attest the wisdom of their adoption.
For the fears of arbitrary court action
sprang largely from the past use of
courts in the imposition of criminal
punishments to suppress speech, press,
and religion. Hence the constitutional
limitations of courts’ powers were, in
the view of the Founders, essential
supplements to the First Amendment,
which was itself designed to protect the
widest scope for all people to believe
and to express the most divergent
political,
religious, and other

39

PETITION FOR APPEAL

App G- 40
views.

Adamson v. California, 332 U.S. 46, 70, 67 S. Ct.
1672, 1685 (1947) (Black. J., dissenting) (footnotes
omitted).
The Privileges or Immunities Clause of the
Fourteenth Amendment declares that “[n]o State . .
. shall abridge the privileges or immunities of
citizens of the United States.”
As noted by Justice Thomas, constitutional
provisions are “written to be understood by the
voters.” McDonald v. City of Chi., 561 U.S. 742,
813, 130 S. Ct. 3020, 3063 (2010) (Thomas. J.,
concurring) (citing, District of Columbia v. Heller,
554 U.S. 570, 576, 128 S. Ct. 2783, 2783
(2008). Thus, in determining the scope of the
Fourteenth Amendment, it is pertinent to discern
what “ordinary citizens” at the time of ratification of
the Fourteenth Amendment would have understood

40
PETITION FOR APPEAL

App G- 41
the Privileges or Immunities Clause to mean. Id.
At the time that the Fourteenth Amendment,
the terms “privileges” and “immunities” had an
established meaning as synonyms for “rights.” Id.
The two words, standing alone or paired together,
were used interchangeably with the words “rights,”
“liberties,” and “freedoms,” and had been since the
time of Blackstone. Id. 561 U.S. at 814 (citing, 1 W.
Blackstone, Commentaries, which described the
“rights and liberties” of Englishmen as “private
immunities” and “civil privileges”). A number of
antebellum judicial decisions used the terms in this
manner. Id. (citing, Magill v. Brown, 16 F. Cas. 408,
428, F. Cas. No. 8952 (No. 8,952) (CC ED Pa. 1833)
(“The words ‘privileges and immunities’ relate to the
rights of persons, place or property; a privilege is a
peculiar right, a private law, conceded to particular
persons or places”). Id.

41
PETITION FOR APPEAL

App G- 42
By the time of the adoption of the Fourteenth
Amendment, it had long been established that both
the States and the Federal Government existed to
preserve their citizens’ inalienable rights, and that
these rights were considered “privileges” or
“immunities” of citizenship. Id.
These principles arose from our country’s
English roots. Id. Fundamental rights, according to
English traditions, belonged to all people but
became legally enforceable only when recognized in
legal texts, including acts of Parliament and the
decisions of common-law judges. Id. (citing, B.
Bailyn, The Ideological Origins of the American
Revolution 77-79 (1967)).
Notably, concerning such rights, the First
Continental Congress declared in 1774 that the
King had wrongfully denied the colonists “the
rights, liberties, and immunities of free and natural-

42
PETITION FOR APPEAL

App G- 43
born subjects . . . within the realm of England.” Id.
(citing, 1 Journals of the Continental Congress
1774-1789, p. 68 (W. Ford. ed. 1904)).
Several years later, the Bill of Rights was
adopted to amend the Constitution to expressly
protect the fundamental rights of citizens against
interference by the Federal Government. Id. 561
U.S. at 818. Consistent with their English heritage,
the founding generation generally did not consider
many of the rights identified in these amendments
as new entitlements, but as inalienable rights of all
men, given legal effect by their codification in the
Constitution’s text. Id., 561 U.S. at 818-819 (citing,
inter alia, 1 Annals of Cong. 431-432, 436-437, 440442 (1789) (statement of Rep. Madison) (proposing
Bill of Rights in the First Congress).
The United States Supreme Court’s
subsequent decision in Barron, however, held at the

43
PETITION FOR APPEAL

App G- 44
time it was rendered that the codification of these
rights in the Bill of Rights made them legally
enforceable only against the Federal Government,
not the States. 32 U.S. at 469, 7 Pet., at 247, 8 L.
Ed. at 751.
Section 1 of the Fourteenth Amendment
protects the rights of citizens “of the United States”.
Id. 561 U.S. at 823. In McDonald, Justice Thomas
provided evidence that overwhelmingly
demonstrated “that the privileges and immunities of
such citizens included individual rights enumerated
in the Constitution”. Id. Those individual rights
also include those enumerated in the Fifth
Amendment, including the right requiring a grand
jury indictment before being made to answer for any
infamous crime.
Notably, when the Fourteenth Amendment
was recommended for adoption, the Joint

44
PETITION FOR APPEAL

App G- 45
Committee on Reconstruction argued “adequate
security for future peace and safety . . . can only be
found in such changes of the organic law as shall
determine the civil rights and privileges of all
citizens in all parts of the republic.” Id. 561 U.S. at
827 (citing, Report of the Joint Committee on
Reconstruction, S. Rep. No. 112, 39th Cong., 1st
Sess., 15 (1866); H. R. Rep. No. 30, 39th Cong., 1st
Sess., p. XXI (1866).
Justice Thomas’ concurring analysis in

McDonald cited to a large body of evidence including
numerous speeches, publications, and legal
decisions as proving that the privileges and
immunities clause of section 1 of the Fourteenth
Amendment was intended and understood to have
the purpose to enforce the Bill of Rights against the
states. Id. 561 U.S. at 827-835.
In this case, Paduano had a fundamental

45
PETITION FOR APPEAL

App G- 46
right to constitutionally mandated grand jury
indictments in his case. Indeed, the law of Virginia
is fully compatible with the Fifth Amendment
provision in requiring Grand Jury indictments for
crimes such as those for which Paduano was
convicted. This is not a case where Virginia had any
reliance on an alternate procedure that could be
claimed to provide equivalent privileges and
immunities to a grand jury indictment.
Instead of acting properly, the Circuit Court
chose to largely ignore the mandated grand jury
indictment process and proceeded to try Paduano
without proper indictments. There was no proper
judge signed order indicting Paduano.
In summary, the grand jury right of the Fifth
Amendment should apply to the states through the
Fourteenth Amendment for the reasons stated
herein. The Commonwealth of Virginia should not

46
PETITION FOR APPEAL

App G- 47
be allowed to violate Paduano’ right to a
presentment or indictment from a Grand Jury and
then for Paduano to have no recourse.
Thus, the Fifth Amendment right to a grand
jury indictment or its functional equivalent should
apply to the states including, without limitation, the
Commonwealth of Virginia.
This Petition should be granted to affirm that
right.
C. Paduano’ defective grand jury
indictments deprived the Circuit Court
of Jurisdiction
Paduano avers that the lack of an order of the
Circuit Court indicting him, the Circuit Court had
no jurisdiction over his case.
A void judgment, is a judgment not subject to
time limitation and can be challenged at any time.

47
PETITION FOR APPEAL

App G- 48
See, e.g., Galpin v. Page, 85 U.S. (18 Wall.) 350, 366
(1873); Slaughter, 222 Va. at 793. A judgment
entered by a court without jurisdiction is void. Id.
A void judgment may be attacked collaterally or
directly in any court at any time. Id.
The Virginia legislature has placed statutory
requirements on grand jury procedures in addition
to the long-standing common law and constitutional
requirements. Among other provisions, it is
required that grand jury indictments list the name
of the witness relied upon by the grand jury. Va.
Code § 19.2-202.
It has also generally been long-standing law
in Virginia, until Hanson was incorrectly decided in
1948, that a failure to record a proper grand jury
indictment in a court’s order book deprived a court
trying a case of jurisdiction. Commonwealth v.

Cawood, 4 Va. 527, 541 (1826). In Cawood, the

48
PETITION FOR APPEAL

App G- 49
Virginia Supreme Court held:
It is undoubtedly true, that before any
person can have judgment rendered
against him for a felony, they must be
regularly accused by the Grand Jury of
his country, and his guilt must be
established by the verdict of a jury. The
accusation in due and solemn form, is
as indispensable as the conviction.
What, then, is the solemnity required
by Law in making the accusation? The
Bill Indictment is sent or delivered to
the Grand Jury, who, after hearing all
the evidence adduced by the
Commonwealth, decide whether it be
true Bill, or not. If they find it so, the
foreman of the Grand Jury endorses on
it, ‘a true Bill,’ and signs his name as
foreman, and then the Bill is brought
into Court by the Whole Grand Jury,
and in open Court it is publicly
delivered to the Clerk, who records the
fact. It is necessary that it should be
presented publicly by the Grand Jury;
that is the evidence required by Law to
prove that it is sanctioned by the
accusing body, and until it is so
presented by the Grand Jury, with the
endorsement aforesaid, the party
charged by it is not indicted, nor is he
required, or bound, to answer to any
charge against him, which is not so
presented.

49
PETITION FOR APPEAL

App G- 50
Id., 4 Va. at 541-542.
Thus, in order for a judgment based upon an
indictment to be valid, an indictment must be
proper, and must be “delivered in court by the grand
jury, and its finding recorded.” Simmons v.

Commonwealth, 89 Va. 156, 157 (1892). Failure to
deliver the indictment in court and record the
finding is a “fatal defect”. Id.
These long-standing principles have been
embodied in both Virginia statutory law and the
Virginia Supreme Court Rules. For example,
Virginia Supreme Court Rule 3A:5(c) requires that a
Grand Jury return and presents their indictment
findings in open court and that the indictment be
endorsed ‘A True Bill’ or ‘Not a True Bill’ and signed
by the foreman. Virginia statutes require the Clerk
of the Court to record the Grand Jury indictment
findings in the Order Book in compliance with Va.

50
PETITION FOR APPEAL

App G- 51
Code §§ 17.1-123(A) and 17.1-124 and 17.1-240.
A court speaks only through its orders. In
those cases where the jurisdiction of the court
depends upon compliance with certain mandatory
provisions of law, the court’s order, spread upon its
order book, must show such compliance or
jurisdiction is not obtained. See, e.g., Simmons, 89
Va. at 159; Cawood, 4 Va. at 542.
The Simmons case is particularly pertinent
authority. In Simmons, the defendant was
convicted of first degree murder. Simmons, 89 Va.
at 157. Like Paduano in this case, the defendant in

Simmons was convicted and sentenced based upon a
grand jury document, just as in Paduano’s case, that
had allegedly been signed by a grand jury foreman,
but had not been recorded in any order book of the
circuit court. Id. The Lee County Virginia Circuit
Court had found the defendant in Simmons guilty

51
PETITION FOR APPEAL

App G- 52
and did not grant him relief based upon a lack of
any recording of grand jury indictment. Id.
However, the Virginia Supreme Court reversed the
conviction and found that the failure to record the
grand jury indictment in an order book of the circuit
court was a fatal defect. Id.
Under Virginia law, although a prisoner has
in fact been arraigned on, and has pleaded to, an
indictment not appearing by the record to have been
found by the Grand Jury, and if a third actual term
has passed without such record of the findings, he is
entitled under Va. Code § 19.2-242 to be discharged
from the crime. Cawood, 4 Va. at 546; Adcock v.

Commonwealth, 49 Va. (Gratt.) 661, 671 (1851).
In this case Paduano should be forever
discharged of the crimes charged because three (3)
or more terms of the Circuit Court have passed
without a trial on valid indictments that were

52
PETITION FOR APPEAL

App G- 53
presented in open court by the Grand Jury and
recorded.
Federal Courts have generally fully complied
with the requirements of the Fifth Amendment
concerning grand jury indictments. As a result, the
United States Supreme Court does not appear to
have previously addressed a case in which no order
was entered indicting a defendant in a criminal
matter. In a rare occurrence of non-compliance, the
Fourth Circuit Court of Appeals found that a failure
to properly record a grand jury indictment was a
fatal defect. In its opinion, the Fourth Circuit Court
of Appeals stated concerning proper procedures for
grand jury indictments and their importance:
1 Chitty on Crim. Law, 324, describes
the mode in which the grand jury
returns the results of their inquiries to
the court, by indorsing “A True Bill” if
found, and “Not a True Bill” if rejected;
and says:
“When the jury have made these
indorsements on the bills, they bring

53

PETITION FOR APPEAL

App G- 54
them publicly into court, and the clerk
of the peace at sessions, or clerk of
assize on the circuit, calls all the
jurymen by name, who severally
answer to signify that they are present,
and then the clerk of the peace or
assize asks the jury whether they
agreed upon any bills, and bids them
present them to the court, and then the
foreman of the jury hands the
indictments to the clerk of peace or
clerk of assize.”
4 Blackstone, 306, also describes the
functions of the grand jury and the
methods of its proceedings, the
necessity of 12 at least assenting to the
accusation, and adds:
“And the indictment when so found is
publicly delivered into court.”
A later text-writer (1 Bishop on Crim.
Procedure, § 869) says:
“When the grand jury has found its
indictments, it returns them into open
court, going personally in a body.”

Renigar v. United States, 172 F. 646, 648 (4th Cir.
1909). The importance of following proper
constitutionally based processes was particularly
emphasized in Renigar:
Neither sound reason nor public policy
justifies any departure from settled
principles applicable in criminal

54
PETITION FOR APPEAL

App G- 55
prosecutions for infamous crimes. Even
if there were a wide divergence among
the authorities upon this subject,
safety lies in adhering to established
modes of procedure devised for the
security of life and liberty, nor ought
the courts in their abhorrence of crime,
nor because of their anxiety to enforce
the law against criminals, to
countenance the careless manner in
which the records of cases involving
the life or liberty of an accused, are
often prepared …
Illegitimate and unconstitutional
practices get their first footing in that
way, namely, by silent approaches and
slight deviations from legal modes of
procedure. This can only be obviated by
adhering to the rule that constitutional
provisions for the security of person
and property should be liberally
construed. A close and literal
construction deprives them of half their
efficacy, and leads to gradual
depreciation of the right as if it
consisted more in sound than in
substance. It is the duty of all the
courts to be watchful for the
constitutional rights of the citizen, and
against any stealthy encroachments.
Their motto should be Obsta
principiis.’”

Renigar, 172 F. at 652, 655.

55
PETITION FOR APPEAL

App G- 56
Paduano recognizes that Renigar has been
criticized and claimed by lower courts to have been
abrogated. See, e.g., United States v. Lennick, 18
F.3d 814, 817 (9th Cir. 1994). However, Renigar
has not been deemed invalid law by a ruling of the
United States Supreme Court, which is the only
court having authority to do so. It is also the case
that Lennick specifically is distinguishable in that
there was actually an order entered in that case
that was compliant other than not being properly
entered in open court. Id. In Paduano’ case, no
proper order of any form was ever entered for his
indictments.
In the case at bar, Paduano avers that his
constitutional rights were violated as to never being
properly indicted. There is nothing in the court’s
records that show that a clerk called each of the
grand jurors by name to signify that they were

56
PETITION FOR APPEAL

App G- 57
present or asked the grand jury whether they
agreed on any bills. Moreover, the Circuit Court
has no record of any indictment against Paduano
having been entered in the Order Book. The failure
of the Circuit Court to record in the Order Book,
that the Grand Jury had returned into open court
and presented true bill indictments against
Paduano, is a fatal defect in the indictment process.
Paduano contends that the failure of the Circuit
Court to record the Grand Jury's indictment
findings in an Order Book in a judge signed order is
a fatal defect that rendered his indictments a nullity
and his convictions void ab initio for lack of
jurisdiction. Cawood, 4 Va. at 541.
Accordingly, Paduano requests that this
Honorable Court grant this Motion and rule that the
failure to indict Paduano are fatal defects that
render his indictments nullities and his convictions

57
PETITION FOR APPEAL

App G- 58
void for lack of jurisdiction.

D. Paduano’s further defective grand jury
indictment deprived this Court of
jurisdiction as to the alleged violation
of Va. Code §18.2-63 (A)
Jurisdiction is the power to adjudicate a case
upon the merits and dispose of it as justice may
require. Shelton v. Sydnor, 126 Va. 625, 629, 102
S.E. 83, 85 (1920). This necessarily involves the
idea that there must be jurisdiction of the subjectmatter of the litigation, and also over the parties
thereto. If either is wanting, the resulting judgment
is void. Evans v. Smith-Wythe Airport Comm’n, 255
Va. 69 (1998).
“It is essential to the validity of a judgment
or decree, that the court rendering it shall have
jurisdiction of both the subject-matter and parties.

58
PETITION FOR APPEAL

App G- 59
But this is not all, for both of these essentials may
exist and still the judgment or decree may be void,
because the character of the judgment was not such
as the court had the power to render, or because the
mode of procedure employed by the court was such
as it might not lawfully adopt.” Id., (quoting,

Anthony v. Kasey, 83 Va. 338, 340, 5 S.E. 176, 177
(1887)).
Paduano’s 5th, 6th and 14th Constitutional
Rights were violated denying him due process and
the right to be informed of the nature and cause of
the accusations against him.
Virginia statutory law recognizes that a
judgment in any criminal case is subject to being
arrested or reversed upon if it is so defective as to be
in violation of the Constitution. Va. Code § 19.2227.
“In order for an indictment to be “so defective

59
PETITION FOR APPEAL

App G- 60
as to be in violation of the constitution” so that a
final judgment in a criminal case will be declared
void, the defect must have deprived the defendant of
the ability to defend against the charge, this
depriving him of due process as required by the 6th
and 14th Amendments.” Reed v. Commonwealth,
281 Va. 471, 481, 706 S.E. 2d 854, 860 (2011).
Va. Code § 18.2-63 (A) states, “If any person
carnally knows, without the use of force, a child
thirteen years of age or older but under fifteen years
of age, such person shall by guilty of a Class 4
felony.”
“The function of an indictment is to give an
accused notice of the nature and character of
accusations against him so that he can prepare an
adequate defense.” Reed, 281 Va. at 481, 706 S.E. 2d
at 860.
Paduano has identified a legally required

60
PETITION FOR APPEAL

App G- 61
matter that was left out of the indictments that
resulted in depriving him of a substantial right and
subjected him to the danger of being tried upon a
charge for which he was not properly indicted.
In the language of Code of Virginia §18.2-63
(A) “…without the use of force…” is an essential
element of the offense that would adequately
apprise Paduano with nature and cause of the
accusation. The indictment(s) must contain every
essential element of the crime alleged. “The Fifth
Amendment guarantees that an individual cannot
be prosecuted for a capital or infamous offense
except on presentment or indictment of a Grand
Jury.” U.S. Constitution Amendment V. In
addition, the Sixth Amendment requires that a
defendant must “be informed of the nature and
cause of the accusation” against him. U.S.
Constitution Amendment VI. The criteria against

61
PETITION FOR APPEAL

App G- 62
which the sufficiency of an indictment is judged
reflects these guarantees. See Russell v. United

States, 369 U.S. 749, 760-64, 8 L. Ed. 2d 240, 82, S.
Ct. 1038 (1962). “An indictment must contain the
elements of the offense charged, fairly inform a
defendant of the charge, and enable the defendant
to plead double jeopardy as a defense in a future
prosecution for the same offense.” United States v.

Hooker, 841 F. 2d 1225, 1234 (4th Cir. 1988) (en
banc) (citing, Hamling v. United States, 418 U.S. 87,
117, 41 L. Ed. 2d 590, 94 S. Ct. 2887 (1974); Russell

v. United States, 369 U.S. at 763-64.
By leaving out or not meeting the language of
“without the use of force” from the indictment(s), the
indictment(s) did not fairly inform Paduano of the
charge. “Without the use of force” is an element of
the crime or alleged offense that should have been
proven at trial in order to convict under the Code of

62
PETITION FOR APPEAL

App G- 63
Virginia §18.2-63 (A).
“As long as an indictment sufficiently recites
the elements, the Commonwealth is not required to
include all evidence upon which it plans to rely to
prove a particular offense.” Sims v. Commonwealth,
28 Va. App. 611, 619-620 (1998). However, in the
subject cases, Paduano’s lawyer requested a Bill of
Particulars which request was denied. The elements
of this particular offense(s) were not recited
sufficiently enough, denying Paduano his
Constitutional Rights and causing the judgments of
the offense of §18.2-63(A) for Indictment numbers CR
12000592-00 and CR 12000477-00 to be void.
Indictment numbers CR 12000592-00 and CR
12000477-00 are invalid indictments being used to
obtain a conviction, the character of the judgment
was not such as the court had the power to render.
V.

Conclusion

63
PETITION FOR APPEAL

App G- 64

For all of the reasons discussed herein, Inman
respectfully and humbly requests that this Court
grant this Appeal, reverse the decision of the Circuit
Court, grant the Motion in its entirety, and order
Paduano’s immediate release.
Dated: March 16, 2020
RESPECTFULLY SUBMITTED,
By:
Dale Jensen
Counsel
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run,
Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com

64
PETITION FOR APPEAL

App G- 65
Certificate
The undersigned counsel certifies:
1.

that the name of the Appellant is Joseph Louis
Paduano;

2. That contact information of counsel is:
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run, Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com
3.

that a copy of the petition for appeal has been
mailed on March 16, 2020 to all opposing
counsel known to Appellant;

4.

that the page count for this Petition is 35;

5.

that counsel has not been retained; and

6.

that appellant does not desire to state orally to a
panel of this Court the reasons why the petition
for appeal should be granted.

7. Dated: March 16, 2020
By:
Dale Jensen
Counsel
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run,
Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile

65
PETITION FOR APPEAL

App G- 66
djensen@dalejensenlaw.com

66
PETITION FOR APPEAL

App G- 67
Certificate of Service
I certify that on the 16th day of March 2020, I
mailed, postage prepaid, a true copy of the foregoing
document to:
Robert Haskins
Commonwealth’s Attorney
1 Main St.
Chatham, VA 24531
Dated: March 16, 2020
By:
Dale Jensen
Counsel
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run,
Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com

67
PETITION FOR APPEAL

App H-1

Handbook for Virginia Grand Jurors

FOREWORD

This handbook is intended for citizens who have
been selected as members of the Grand Jury and
are about to report to the court to perform their
duties. It does not purport to be a complete
statement of the law affecting the Grand Jury
and its work. The court itself is the sole authority
in its charge to the Grand Jury and in any later
instructions, as to these governing principles of
law. This handbook merely attempts to give a
Grand Juror an understanding of the general
nature of his functions, with some practical
suggestions as to how best he can carry them out.

App H-2

In order that each Grand Juror may perform his
or her duties as intelligently and efficiently as
possible, it is suggested that the contents of this
handbook be studied carefully before the term of
service begins. Also, this handbook should be kept
available for ready reference during the period of
service.

1. NATURE OF THE GRAND JURY

1. Types

There are three types of Grand Juries - Regular,
Special and Multi-Jurisdiction. A Regular Grand
Jury is convened at each term of the Circuit Court
of each city and county, to attend to the usual
matters needing Grand Jury action. On
infrequent occasions a court will convene a

App H-3

Special Grand Jury to investigate some particular
matter. Multi-Jurisdiction Grand Juries involve
more than one jurisdiction and are primarily used
to investigate drug law violations.

2. Function of a Regular Grand Jury

A regular Grand Jury is composed of from five to
seven citizens of a city or county, summoned by
the Circuit Court of that city or county, to
consider bills of indictment and to hear witnesses
and determine whether there is probable cause to
believe that a person accused of having committed
a serious crime did commit the crime and should
stand trial at a later date. The Court may
summon up to nine people to ensure a sufficient
number.

App H-4

The Grand Jury does not hear both sides of the
case and does not determine the guilt or
innocence of the accused person. This is
determined by a "petit (trial) jury" if and when
the accused is tried later. The Grand Jury only
determines whether there is probable cause that
the accused committed the crime and should
stand trial.

3. Function of a Special Grand Jury

A Special Grand Jury is composed of from seven
to eleven citizens of a city or county, summoned
by a Circuit Court to investigate and report upon
any condition which tends to promote criminal
activity in the community or by any governmental
authority, agencies, or the officials thereof.

App H-5

If a majority of the regular grand jurors so
request, and if the judge finds probable cause to
believe that a crime has been committed which
should be investigated by a special grand jury, a
special grand jury must be empanelled to be
composed of the grand jurors so requesting and
willing and such additional members as are
necessary. If a minority so requests, a Special
Grand Jury may be empanelled.

The function and duties of a Special Grand Jury
are set forth in detail in Part III of this
Handbook.

4. Importance of the Grand Jury

As Harlan Fiske Stone, late Chief Justice of the
United States Supreme Court, said:

App H-6

• Jury service is one of the highest duties of
citizenship, for by it the citizen participates in the
administration of justice between man and man
and between government and the individual.

• In time of peace a citizen can perform no higher
public duty than that of Grand Jury service. No
body of citizens exercises public functions more
vital to the administration of law and order.
The Grand Jury is both a sword and a shield of
justice-a sword, because it is a terror of criminals;
a shield, because it is a protection of the innocent
against unjust prosecution. No one can be
prosecuted for a felony except on an indictment by
a Grand Jury. With its extensive powers, a Grand
Jury must be motivated by the highest sense of
justice, for otherwise it might find indictments

App H-7

not supported by the evidence and thus become a
source of oppression to our citizens, or on the
other hand, it might dismiss charges against
those who should be prosecuted.

5. Origin

The Grand Jury had its origin more than seven
centuries ago in England from which, in large
part, this country inherited its legal system.
Many legal historians trace its origin to events in
the reign of Henry II and to one of the articles of
the Constitution of Clarendon in
1164. It was recognized in Magna Carta granted
by King John at the demand of the people

in 1215. One of its earliest functions was to
protect citizens from despotic abuse of power by

App H-8

the king; its other function was to report those
suspected of having committed criminal offenses.

These two functions are carried forward today in
the work of the Grand Jury, and its importance in
controlling the start of prosecutions for serious
crimes is recognized in both the Constitution of
the United States and the Constitution of
Virginia.

6. Preliminary Criminal Process

(a) Initial Proceedings. A person suspected of
having committed a crime is usually arrested and
charged in a written accusation called a Warrant
or Summons.

App H-9

Crimes of a serious nature are classified as
"felonies," which are punishable by confinement
in the penitentiary. Crimes of a less serious
nature are classified as "misdemeanors," and are
punishable by confinement in jail for a period not
to exceed twelve months and/or by a fine not to
exceed $2,500.

A person held on a Warrant is brought to trial in
a District Court. The trial is conducted before a
judge without a jury. (1) If the judge determines
that the accused is not guilty of any criminal
offense, he or she dismisses the case. (2) If the
judge determines that the accused is guilty of a
misdemeanor only, the judge will assess the
punishment. (3) If, however, the judge determines
that a felony may be involved, the judge will
certify (send) the case to the Circuit Court for

App H-10

presentation to a Regular Grand Jury to
determine whether there is probable cause to
believe that a felony has been committed by the
accused person. This procedure is used because a
District Court has no authority to try a person for
a felony.

The District judge will fix the terms on which the
accused may be released on bail while waiting for
action on the case in the Circuit Court.

(b) Bills of Indictment. After a case has been
certified to the Circuit Court, the
Commonwealth's Attorney will prepare a written
document called a "bill of indictment," in which
the accused is charged in a legal and formal
manner with having committed a specified felony.

App H-11

As will be described in greater detail later in this
handbook, it is this "bill of indictment" that the
Regular Grand Jury considers to determine if
probable cause exists to require that the person
accused stand trial at a later date in the Circuit
Court.

(c) Misdemeanors. A Grand Jury usually does not
deal with minor crimes (misdemeanors) or with
traffic offenses. Prosecution of these offenses
usually is begun by the police or the
Commonwealth's Attorney on a Warrant or a
Summons. Indeed, were this not so, a Grand Jury
would be so overloaded with the volume of such
complaints that it could not perform its more
important duties.

II. THE REGULAR GRAND JURY

App H-12

7. Qualifications

A Grand Juror must have been a resident of
Virginia for at least one year and a citizen of the
city or county in which he or she is to serve for at
least six months, and must be "eighteen years of
age or older, of honesty, intelligence and good
demeanor and suitable in all respects to serve" as
a Grand Juror.

8. Selection; Summons; Size

Each year the judge of the Circuit Court of each
city and county selects at least sixty and not more
than one hundred and twenty citizens from the
city or county to serve as Grand Jurors during
that year.

App H-13

Not more than twenty days before the beginning
of the term of court, the Clerk of the Circuit Court
summons from the Grand Jury list, not less than
five nor more than nine persons to serve as Grand
Jurors for that term of court. The judge may
dismiss several jurors to assure a jury of not more
than seven.

The Clerk directs the sheriff to summon the
persons selected to appear at the court on the first
day of the term to serve as Grand Jurors for that
term.

9. Exemptions and Excuses

Any person who has legal custody of a child 16
years of age or younger or of a person having a

App H-14

mental or physical impairment requiring
continuous care during normal court hours, any
mother who is breast-feeding a child, any person
over 70 years of age, any person whose spouse is
summoned to serve on the same jury panel, any
person who is the only person performing
essential services for business, commercial or
agricultural enterprise without which the
enterprise would close or cease to function, a
mariner actually employed in maritime service,
and several categories of legislative branch
employees during specified times must be excused
from jury service upon request.

If you are exempt from jury service for either of
the foregoing reasons or, if you have some other
good reason to be excused from Grand Jury
service, you should contact the judge of the

App H-15

Circuit Court to which you have been summoned
immediately and in person (or if the judge is not
available, contact the Clerk of that Court). DO
NOT WAIT UNTIL THE DAY ON WHICH YOU
HAVE BEEN SUMMONED, because if you are
excused, this may cause serious inconvenience to
the court and a delay in the administration of
justice while another Grand Juror is procured.

Your service as a Grand Juror ordinarily will
require only part of one day. In view of the high
privilege of service as a Grand Juror and of the
importance of the public service rendered, you
should not ask to be excused unless it is
absolutely necessary.

10. First Appearance in Court

App H-16

You will report for service at the courtroom of the
Circuit Court to which you have been summoned
on the date and at the hour stated in the
summons.

The Clerk of the Circuit Court will call your name
and you will take your place in the jury box (the
name applied to the area at which jury chairs are
located).

The judge will appoint one of you to be Foreman
(your presiding officer). The Foreman will then be
sworn in under an oath that states your
important powers and responsibilities. The
remaining members of the Grand Jury are then
sworn to observe the conditions of the same oath.

App H-17

11. Oath

The oath taken by each Grand Juror is as follows:

• You shall diligently inquire, and true
presentment make, of all such matters as may be
given you in charge, or come to your knowledge,
touching the present service. You shall present no
person through prejudice or ill will, nor leave any
unrepresented through fear or favor, but in all
your presentments you shall present the truth,
the whole truth, and nothing but the truth. So
help you God.

To "diligently inquire" means to make an honest
and earnest consideration of all the circumstances
involved in the matter, and a common sense
decision based upon the facts.

App H-18

Your oath requires you to be impartial (fair to
both sides)-the foundation of justice and equality.

The requirement for "truthfulness" is a pledge of
honesty in the performance of your duties.

If you follow the conditions of your Oath of Office,
you will have met your full requirement as a
member of the Grand Jury, and you will have
performed your responsibilities in accordance
with the law.

12. Charge by the Court

After you have been sworn, the judge will address
you formally, and in greater detail, as to how you
are to perform your duties and responsibilities.

App H-19

This address is called "The Charge to the Grand
Jury." This Charge, plus any other instructions
given to you by the judge, together with your
Oath are your controlling guides. After receiving
the Charge to the Grand Jury, you will be
escorted to the Grand Jury Room, where you will
receive the bills of indictment you are to consider,
and you will hear witnesses in the cases brought
to your attention.

13. Procedure in the Jury Room

(a) Quorum. A Regular Grand Jury consists of
not less than five members. At least four must
concur (agree) in returning "A True Bill" on an
indictment.

App H-20

Should an emergency arise necessitating the
absence of a Grand Juror, the Grand Jury should
cease deliberations while this fact is reported to
the judge.

Business of the Grand Jury should be conducted
only when all members are present in the jury
room. If it is necessary for a member to be
temporarily absent, a recess should be declared
by the Foreman until the member rejoins the
group.

(b) Hearing Witnesses. The bills of indictment you
are to consider will be delivered to you. It is your
duty to determine if probable cause exists to
require the person accused of a crime in a bill of
indictment to stand trial. You will determine this
from the testimony of witnesses.

App H-21

The names of available witnesses in a given case
will appear on the bill of indictment. These
witnesses will have been sworn by the judge to
tell the truth while they are in the jury room. You
will notify the judge when you are ready to call a
witness.

If any person who is not listed on the bill of
indictment, or is listed but not called to testify by
the Grand Jury, wants to testify he or she must
obtain permission from the judge. Even then, the
Grand Jury may refuse to hear this testimony
unless the judge orders that it be heard.

Witnesses should be examined one at a time.
There is no set manner in which a witness is
examined. One appropriate way is for the

App H-22

Foreman to ask the witness to tell what he or she
knows about the charge against the accused, after
which questions may be asked of the witness by
any member of the Grand Jury if additional
testimony is desired.

All questioning should not show any viewpoint on
the part of the questioner.

It is not necessary to call or hear every witness
listed on the bill of indictment, to approve it ("A
True Bill"). It is only necessary to hear as many
(one or more) as it takes to satisfy four members
of the Grand Jury that probable cause exists to
require the party accused to stand trial.

App H-23

On the other hand, a bill of indictment should not
be disapproved ("Not a True Bill"), unless every
witness listed on the bill of indictment who is
available has been examined.

(c) Witness Refusal to Testify .If a witness refuses
to answer a question, the Grand
Jury should not press the question or attempt on
its own to compel an answer. The reason for the
refusal by the witness may involve the technical
issue of whether the question asked violates this
witness's constitutional privilege against selfincrimination. If the jury desires to press the
matter further, the question should be written out
on a sheet of
paper, a recess declared, and the matter reported
to the judge orally in open court, whereupon the

App H-24

judge will determine if the witness is compelled to
answer.

(d) Accused as a Witness. The accused person
named in the bill of indictment will not be listed
as a witness, nor will any witnesses favorable to
him probably be listed. This is because the Grand
Jury does not determine the guilt or innocence of
the accused, but only determines whether the
testimony of the witnesses produced by the State
establishes probable cause to require the accused
to stand trial.

If an accused desires to testify, he or she must
obtain permission from the judge, who will tell
the accused of the privilege against selfincrimination. And even if the judge permits her
or him to testify, the Grand Jury may refuse to

App H-25

hear the testimony unless it is ordered to do so by
the judge.

14. Determination to Indict or Not

As has been repeatedly stated, the Grand Jury
does not sit to determine the guilt or innocence of
the accused. The function of the Grand Jury is to
determine whether there is probable cause to
require the accused to stand trial.

Only members of the Grand Jury are in the jury
room while it is deliberating and voting.

When the Grand Jury has heard all necessary or
available witnesses in a given case, the Foreman
will ask the members to discuss and vote on the
question of whether or not "A True Bill" should be

App H-26

found on the charge. Every Grand Juror may now
comment on the sufficiency of the evidence and
express an opinion on the matter.

After each member who desires to speak has been
heard, the Foreman will call for a formal vote to
find out if there is the required number of four
affirmative (yes) votes.

15. Finding of Indictment

An indictment may be found "A True Bill," only
upon the affirmative vote of four or more
members of the Grand Jury.

If there are enough affirmative votes in favor of
finding an indictment, the Foreman will endorse

App H-27

(write) the phrase "A True Bill" on the back of the
bill of indictment and sign it.

If there are insufficient affirmative votes, the
Foreman will endorse the phrase "Not a True
Bill" and sign it.

16. Special Findings, If Any

After all the bills of indictment have been
considered, the judge will ask if any member of
the Grand Jury believes that a Special Grand
Jury should be called to investigate any condition
which tends to promote criminal activity in the
community or by any governmental authority,
agency or official.

App H-28

This power should be used with extreme caution,
because it can be a weapon of oppression. It
should not be used upon gossip or rumor. On the
other hand, if there is a rational basis to believe
that any such condition exists the Regular Grand
Jury should report its view to the judge.

17. Return of Indictment

After all of the bills of indictment have been
considered and the Grand Jury has determined if
it wants to report on any special matter, it will
inform the judge that it has ended its
deliberations. It will then present its findings in
open court. This will be done by the Clerk of the
court reading the names of the accused persons
and, after each name, reading the words "A True

App H-29

Bill" or "Not a True Bill" as endorsed on the
indictment by the Foreman of the Grand Jury.

18. The Commonwealth's Attorney

To keep the Grand Jury free from any pressure
from the State, Virginia makes it illegal for any
attorney representing the State to appear before
the Grand Jury except as a witness.

If, however, members of the Grand Jury have
questions about their duties, they may ask the
Commonwealth's Attorney for advice.

Except for these two cases, if a Commonwealth's
Attorney appears in the Grand Jury Room while

App H-30

the Grand Jury is there, any indictment returned
"A True Bill" by the Grand Jury is invalid (no
good). Therefore, while a Grand Jury may request
the appearance of the Commonwealth's Attorney
to testify as a witness or to explain some principle
of law about the discharge of their duties, they
cannot seek his advice as to whether they should
return an indictment as "A True Bill. " If a Grand
Jury finds that it is in need of advice as to its
duties but doesn't know if it can invite the
Commonwealth's Attorney into the Grand Jury
Room to explain, it should notify the judge that it
desires further instructions, and it will receive
such instructions in open court.

19. Secrecy

App H-31

The law provides that "every member of a regular
or special grand jury must keep secret all
proceedings which occurred during sessions of the
grand jury."

The secrecy of Grand Jury proceedings is
important because:

1.Secrecy protects Grand Jurors from being
subjected to pressure by persons who may be
interested in the outcome of Grand Jury action.
2.Secrecy may prevent the escape of persons
against whom an indictment is under
consideration.
3.Secrecy encourages witnesses to speak the truth
freely before the Grand Jury.
4.Secrecy as to what witnesses testified to before
the Grand Jury prevents the witnesses from being

App H-32

tampered with between that time and the time
they testify at the trial of the accused.

20. Protection of Grand Jurors

The Grand Jury is an independent body
answerable to no one except the judge. No inquiry
may be made to learn what a Grand Juror said or
how he or she voted. The secrecy surrounding
Grand Jury proceedings is one of the major
sources of this protection. The law gives Grand
Jurors complete immunity for official acts within
their authority as Grand Jurors, regardless of the
result of an indictment found by the Grand Jury.

21. Practical Suggestions

App H-33

Witnesses summoned to testify before the Grand
Jury are present frequently at personal, business
or official inconvenience.

They sometimes come from a distance. Police
officers often are called on their "off hours. " It is
important, therefore, that the business of the
Grand Jury be carried on in an expeditious
manner-not too slow but not too fast. Some cases
may require only one witness and take only a few
minutes; others will require much more attention.

The following suggestions are offered to assist you
in carrying out your duties in a fair and
expeditious manner.

App H-34

Pay close attention to the testimony of the
witnesses. The reputation or freedom of someone
depends on what is being told.

Be courteous to the witnesses and do not cut off
their testimony unless it becomes needlessly
repetitious.

Listen to the opinions of your fellow jurors, but do
not be a rubber stamp. On the other hand, do not
try to monopolize the hearing or the deliberations.
Be independent, but not stubborn.

Express your opinion, but don't be dictatorial. You
may try to persuade other jurors, but do not try to
force them to change their minds. After all, they
may be right and you may be wrong.

App H-35

Each juror is entitled to be satisfied with the
evidence before being called upon to vote.
Although your mind may be made up, if others
wish to pursue the matter further, do not try to
shut off additional testimony or deliberation.

Do not keep silent when the case is under
discussion, and then begin to talk about it after
the vote is taken.

Do not discuss cases with your fellow Grand
Jurors outside the jury room.

Maintain dignity in the proceedings at all times.
Moderation and reason, rather than emotion and
passion, lead to justice.

22. Compensation

App H-36

The State does not compensate (pay) Grand
Jurors in proportion to the valuable service they
render. There are several reasons for this. One
thing to be avoided is the so-called "professional
juror"-a person, usually unemployed, who
welcomes (and sometimes even solicits) jury duty
solely for the compensation and with little or no
regard for civic responsibility. Another reason is
the cost to the taxpayer. When one recalls that
Grand Juries meet in every city and county in the
State from four to twelve times a year, it is
readily seen that a large expense could result.

While the State hopes that Grand Jurors will
serve as a matter of public pride and civic duty, it
does not want Grand Jury duty to be a financial
cost to the Grand Juror. The law provides for the

App H-37

compensation of Grand Jurors for each day of
attendance. The amount of this compensation is
changed from time to time by action of the
General Assembly. Each Grand Juror should
report attendance and mileage to the Clerk of
Court.

III. THE SPECIAL GRAND JURY

23. Function of a Special Grand Jury

As has been set out in Section 3, a Special Grand
Jury is composed of from seven to eleven citizens
of a city or county, selected by the Circuit Court
and summoned to investigate any condition which
tends to promote criminal activity in the
community or by any governmental authority,
agency or official.

App H-38

The Special Grand Jury, composed entirely of
private citizens, is the one non-political body with
legal authority to make such investigations.

24.Characteristics

While the function and powers of the Special
Grand Jury and those of the Regular Grand Jury
differ, many of the observations made earlier
concerning the Regular Grand Jury are applicable
to the Special Grand Jury. Some of these are its
Importance (see Section 4); Origin (see Section 5);
Qualifications (see Section 7); Oath (see Section I
1); Secrecy (see Section 19); Protection (see
Section 20); and Practical Suggestions (see
Section 21).

App H-39

Other similarities will be noted later.

25. Scope of Investigation

The responsibility of a Special Grand Jury
ordinarily will be to investigate a narrow special
condition believed to exist in the community. On
the one hand, its duty is to make a full and
complete investigation and report on that
condition; on the other hand, it is not convened to
go on a fishing expedition with respect to other
possible illegal conditions which may exist. If
during the course of its authorized investigation,
some other illegal condition comes to light which
the Special Grand Jurors feel needs investigation,
the Special Grand Jury should call attention to it
in its report.

App H-40

The investigation is to ascertain whether alleged
criminal or corrupt conditions exist under present
law. The investigation is not to determine if the
law is good or bad, or if it needs to be changed. It
is possible, indeed, that as a result of the
investigation, the law may need to be changed,
but that is a legislative matter and a conclusion
for the General Assembly of Virginia to make.

There are no time limitations on an investigation
by a Special Grand Jury. The complexity of the
condition being investigated will dictate the
length of time needed.

26. Convening

A Circuit Court may, on its own motion, convene
a Special Grand Jury. Frequently, the

App H-41

Commonwealth's Attorney will make the request.
Also, as noted in Sections 3 and 18, the request
may come from a Regular Grand Jury.

If the judge of the Circuit Court decides that a
Special Grand Jury should be convened, he or she
will select the names of those to serve, and they
will be summoned to appear at a specified time.
What was said in Section 9 regarding Exemptions
and Excuses from Grand Jury duty is the same
for Special Grand Jury service.

On the day appointed, the Judge will swear in the
Special Grand Jury and will then charge
it with the subject it is to investigate. The Judge
will appoint one of those selected to serve as
Foreman.

App H-42

The Special Grand Jury is now ready to begin its
work.

27. The Commonwealth's Attorney

If the Special Grand Jury was convened at the
request of the Attorney for the Commonwealth,
he may be present at all times during the
investigatory stage of the proceedings. If the
Special Grand Jury was convened at the request
of someone else, the Attorney for the
Commonwealth may be present only if requested
by the Special Grand Jury.

In either event, if the Attorney for the
Commonwealth is present, he or she may
question witnesses only if the Special Grand Jury
requests or consents to such questioning.

App H-43

The Attorney for the Commonwealth shall not be
present, however, at any time while the Special
Grand Jury is discussing or evaluating the
testimony of a witness among themselves or while
the Special Grand Jury is deliberating in order to
reach a decision or prepare its report. However,
he or she may be present during this period if
legal advice is requested by the Special Grand
Jury. The Grand Jurors should not permit the
Commonwealth's Attorney, while he or she is
giving legal advice, to join in any determination
by them of the weight to be given to the testimony
of a witness.

The foregoing limitations are in the law to insure
the complete independence of the Special Grand

App H-44

Jury and to protect it against any undue influence
from an official of the Commonwealth.

28. Special Counsel

At the request of the Special Grand Jury, the
judge may appoint special counsel to assist it in
its work.

29. Special Investigative Personnel

The Special Grand Jury may call upon any state
or local agency or officer to assist it in its
investigation. The type of condition being
investigated will dictate the type of investigative
personnel needed. If required, the Special Grand
Jury may request the judge to provide other

App H-45

specialized personnel to assist it in the
investigation.

30. Court Reporter

A court reporter will record and transcribe all oral
testimony given by witnesses before the Special
Grand Jury. The transcript is for the sole use of
the Special Grand Jury and its contents must not
be revealed by anyone.

In a lengthy investigation it would be difficult to
remember exactly what earlier witnesses said, so
it is appropriate for the Special Grand Jury to
have a transcript (written record) of all testimony
available to which it may refer during later stages
of its work.

App H-46

31. Subpoena Power

The Special Grand Jury may have a summons
issued ordering a person to appear before it to
testify and to produce specified records, papers
and documents for examination by the Special
Grand Jury. Any desired papers or records must
be described with reasonable accuracy in the
summons. The Special Grand Jury is not engaged
in a witch hunt or a fishing expedition hoping
that a document may turn up; it must have a
reasonable belief that a particular record, paper
or document does, in fact, exist.

When a summons is desired, the Special Grand
Jury may notify the Clerk of the Circuit Court,
giving the Clerk the name (and address if known)
of the person to be summoned, the date and hour

App H-47

set for his appearance, and if papers are desired,
a description of them.

32. Warnings Given to a Witness

Before witnesses testify, they must be advised by
the Special Grand Jury Foreman that:

• the witnesses do not have to answer any
questions nor produce any evidence that would
tend to incriminate them; and
• the witnesses may hire their own counsel and
have them present while they testify;
and
• the witnesses may be called upon later to testify
in any case that may result from the investigation
and report of the Special Grand Jury.

App H-48

33. Counsel for the Witness

Witnesses appearing before a Special Grand Jury
have the right to have counsel of their own
present when testifying. Such counsel shall have
the right to consult with and advise the witness
during the examination, but the counsel does not
have the right to conduct an examination of his or
her own witness, unless, the Special Grand Jury
requests or permits it.

34. Oath of Witness

After the witness has been given the warnings set
forth in Section 32, the Foreman will administer
the following oath to the witness (an affirmative
answer is required):

App H-49

Do you solemnly swear (or affirm) that the
evidence you are about to give before the
Grand Jury is the truth, the whole truth, and
nothing but the truth, so help you God?

35. Examination of Witness

If the Special Grand Jury was convened at the
request of the Commonwealth's Attorney, he or
she will have a list of the witnesses to present. It
would be appropriate, therefore, for the Special
Grand Jury to invite the Commonwealth's
Attorney to examine these witnesses. After this
examination, members of the Special Grand Jury

App H-50

should then ask any further questions of the
witness that are appropriate.

If the Special Grand Jury was convened at the
request of someone other than the
Commonwealth's Attorney, the Special Grand
Jury may still ask the Commonwealth's Attorney
to be present and conduct the examination, or the
Special Grand Jury may request the judge to
designate special counsel to assist it and to
conduct the examination, or the Special Grand
Jury may conduct the examination itself without
aid of counsel.

If examination of a witness leads the Special
Grand Jury to believe that the testimony of other
witnesses may be desirable, a request for a
summons for such other witnesses should be

App H-51

made to the Clerk of the Circuit Court as
specified in Section 31 of this Handbook.

The questioning of a witness should not indicate
any viewpoint on the part of the questioner.

36. Witness Refusal to Testify

If a witness refuses to answer a question, the
Special Grand Jury should follow the procedures
specified in Section 13 (c) of this handbook.

37. Deliberation

App H-52

After all witnesses have been heard, the Special
Grand Jury is now ready to deliberate and make
its findings on the matter submitted to it by the
court. Only the members of the Special Grand
Jury are to be present during this stage of the
proceeding, unless at intervals the Special Grand
Jury desires the temporary presence of the
Commonwealth's Attorney or Special Counsel to
advise it on some legal matter.

Again it should be emphasized that the Special
Grand Jury has been convened to investigate and
report its findings on some specific isolated
condition believed to exist in the community. Its
findings and recommendations, if any, should
relate specifically to the subject committed to it. It
is not involved in a general moral crusade.

App H-53

At the conclusion of its investigation and
deliberation, a Special Grand Jury impaneled by
the court or on recommendation of a Regular
Grand Jury shall file a Report of its findings with
the court, including any recommendations that
the Special Grand Jury deems appropriate,
including any finding that a person ha committed
a criminal offense, with or without a
recommendation that such a person be
prosecuted. It is then the duty of the
Commonwealth's Attorney, after the Report of the
Special Grand Jury, to determine whether a
prosecution should begin, and if so, to present a
bill of indictment to a Regular Grand Jury. A
Special Grand Jury convened at the request of the
Commonwealth's
Attorney may return a "true bill" of indictment
upon the testimony of or evidence produced by

App H-54

any witness who was called by the grand jury, if a
majority of not fewer than five of the members of
the Special Grand Jury agree.

38. Findings

Findings should be findings of facts which the
Special Grand Jury reasonably believes to exist.
It is entirely possible that several or many of such
facts are to be considered by the Special Grand
Jury and that a vote needs to be taken on each
such fact. A majority vote in the affirmative on
each such fact is necessary to include it in the
Report the Special Grand Jury will make to the
court.

While no particular procedure need be followed,
one way to proceed would be for individual

App H-55

members to submit to the Foreman such findings
as he or she may think appropriate, and then the
Foreman (or some member designated by him)
could prepare a list of the proposed findings,
following which a vote should be taken on each
such proposed finding.

39. Report

At the end of its deliberation the Special Grand
Jury must prepare a written Report of its
findings, including any recommendations it may
deem appropriate. This Report will be the finding
of the majority of the Special Grand Jury.

App H-56

The Court Reporter may be used to prepare the
Report.

Members who do not agree with the findings of
the majority may file a minority report on any
finding with which they disagree.

When the Special Grand Jury is ready to file its
Report, the Report should be dated and signed by
the Foreman.

40. Transcript, Notes, etc.

After the Special Grand Jury has completed its
use of the transcripts prepared for it by the Court
Reporter, the Foreman must direct the Court
Reporter to turn over to him or her all of the
notes, tapes or records from which the transcripts

App H-57

were made. The Foreman shall then place the
transcripts, notes, tapes, and records in a
container and seal it. The date on which the
Report is filed should then be placed on the sealed
container.

41. Filing of Report

When the Special Grand Jury is ready to make its
Report, it should notify the judge, and in open
court hand in its Report and the sealed container.

42. Secrecy

App H-58

It is highly important that the members of the
Special Grand Jury should not reveal any of their
proceedings nor any contents of their Report.
Publication of the Report itself is a matter for the
court.

43. Compensation

See section 22 of this handbook.

IV THE MULTI-JURISDICTION GRAND JURY

44.Function of a Multi-Jurisdiction Grand Jury

Multi-Jurisdiction Grand Juries, sometimes
called Multi-District Juries, are summoned to
investigate drug law violations, consider bills of
indictment prepared by special counsel

App H-59

and determine whether probable cause exists to
justify returning the indictment as a "true bill"
against the accused. The Multi-Jurisdiction
Grand Jury reports its findings to state and
federal prosecutors.

45.Selection and Size

Like Special Grand Juries, Multi-Jurisdiction
Grand Juries are composed of not less than seven
not more than eleven members. MultiJurisdiction Grand Jury’s inquires typically focus
on drug law violations which may have occurred
in many different Virginia localities and court
jurisdictions. Accordingly, to the extent partially
possible, the presiding judge
will try to draw a Grand Jury from each
jurisdiction in which the alleged violation

App H-60

occurred. However, the maximum number of
jurors will always be eleven. Juror's qualifications
are similar to those described in section 7 of this
handbook.

46.Proceedings

To convene a Multi-Jurisdiction Grand Jury, two
or more Commonwealth's Attorneys from
different jurisdictions, after receiving approval
from the Attorney General of Virginia, may apply
to the Supreme Court of Virginia. The term of the
Multi-Jurisdiction Grand Jury shall be twelve
months but may be extended up to an additional
six months. However, the presiding judge may
discharge the jurors at any point the presiding
judge believes the Multi-Jurisdiction Grand Jury
is no longer needed. The presiding judge

App H-61

determines the time, date and place the MultiJurisdiction Grand Jury will be convened. Jurors
are compensated according to statute. The secrecy
provisions also apply to Multi-Jurisdiction Grand
Juries. This type of Grand Jury has statewide
subpoena power. Although witnesses appearing
before the Multi-Jurisdiction Grand Jury are
entitled to the presence of their attorney during
the proceedings, the attorney may not participate
in the proceedings. A

majority of the Multi-Jurisdiction Grand Jurors
must agree to return a "true bill" of indictment
and in no instance can the majority be less than
five jurors. The "True Bill" must state each and
every jurisdiction in which the offenses occurred.

CONCLUSION

App H-62

Membership on a Grand Jury, Regular or Special,
is a high honor. Your service is of great value to
your fellow citizens and your time is devoted to
one of the worthiest of causes: justice.

It is hoped that this Handbook will make your
work easier, more understandable, and more
pleasant.

General Information for Individuals With
Disabilities

In accordance with the Americans with
Disabilities Act, Virginia’s Judicial System has
adopted a policy of non-discrimination in access to
its facilities, services, programs, and activities.
Individuals with disabilities who need

App H-63

accommodation in order to have access to court
facilities or to participate in Judicial System
functions are invited to request assistance from
court staff. Individuals who need printed material
published by the Judicial System in another
format or who have general questions about the
Judicial System’s non-discrimination policies and
procedures may contact the ADA Coordinator,
Department of Human Resources, Office of the
Executive Secretary, Supreme Court of Virginia,
100 North Ninth Street, Third Floor, Richmond,
Virginia 23219, (804) 786-6455. Detailed
information on this policy is available on
Virginia’s Judicial System Web site,
www.courts.state.va.us. Individuals with
disabilities who believe they have been
discriminated against may file a complaint in
accordance with the Judicial System’s ADA

App H-64

Grievance Procedure, which is available from the
ADA Coordinator and on Virginia’s Judicial
System Web site. Virginia’s Judicial System does
not discriminate on the basis of disability in
hiring or employment practices.

Web site revision 5/13

